                                     National Science Foundation
                                       420 1 Wilson Boulevard
                                      Arlington, Virginia 22230


Office of Inspector General


MEMORANDUM

Date:           MAY 1 3       2008
To:           Mary F. Santonastasso, Director
                         Institution and Award Support

T hru :
                          4.
              Deborah H. Cureton
                                 u
              Associate Inspector General for Audit

From:                                         Office of Inspector General

Subject:      Audit Report No. OIG-08-1-009
              School District of Philadelphia


Attached is the final report prepared by M.D. Oppenheim & Company, P.C., an independent public
accounting firm, on the audit of NSF Award Nos. ESR-9453043 and ESI-0085055 awarded to the
School District of Philadelphia (SDP). The audit covered NSF-funded costs claimed from July 1,
1999 to August 3 1, 2005 aggregating to approximately $13.1 million of NSF direct funded costs
and approximately $1.6 million of cost sharing.

The auditors were unable to determine whether $4,160,047 of the approximately $13 million of
direct and associated indirect costs (31 % of total costs) claimed by SDP to NSF for NSF awards
ESR-9453043 and ESI-0085055 were allowable, allocable, and reasonable in accordance with
applicable Federal cost principles and NSF award terms and conditions. This occurred because
SDP could not provide reliable information from its accounting system and could not provide
adequate source documentation to support the amounts it claimed to NSF as incurred grant
expenses for its NSF awards. The auditors were unable to test material portions of SDP's grant
expenses, and thus, questioned $4,160,047 of the costs SDP claimed to NSF as well as issued a
disclaimer of opinion for the audit.

Moreover, the significant deficiencies identified with this disclaimer of opinion were previously
identified at SDP in an earlier audit of SDP for NSF award number ESR-9453043 for the period
September 15, 1995 to June 30, 1999. A report issued by M.D. Oppenheim, dated January 12,
2000, indicated that SDP had an inadequate system of record retention and retrieval, inadequate
accounting and reporting of cost sharing, and a lack of monitoring of expenditures to NSF approved
budget categories. The current audit confirmed that the deficiencies previously identified at SDP
were not only left uncorrected for the past several years, but, in fact, had become more egregious,
even though SDP indicated to NSF during the resolution process for the January 2000 audit that
these deficiencies had been corrected.

SDP still lacks an adequate record retention and retrieval system. SDP7s system of record
retention was in such a state of disarray, that SDP required an inordinate amount of time (4 '/z
months) to produce records for this audit. Moreover, SDP could not locate time and attendance
reports for employees charged to its NSF awards for the period July 1, 1999 to November 30, 2002,
resulting in questioned salaries and wages of $1,784,023 and associated fringe benefits of $713,6 10.
Of the time and attendance reports that SDP could locate, required documentation was missing for
an additional $108,412 of salaries, wages, and fringe benefits. These amounts represented 100% of
the salaries and wages and fringe benefits for NSF award number ESR-9453043 and 44% for NSF
award number ESI-0085055. In addition, SDP could not locate documentation to support certain
fringe benefits and non-personnel costs totaling $654,024. $73,240 of indirect costs related to the
questioned direct payroll costs was also questioned.

SDP also lacked a system to identify, account for, monitor and report cost sharing it contributed to
both NSF awards. Because of the deficiencies in SDP's cost sharing system, and because of SDP's
deficiencies in record retention, SDP could not provide any evidence that cost sharing was incurred
or reported for the audit period July 1, 1999 to August 31, 2001 for award ESR-9453043. The
auditors verified that $32,334,375 in cost share expenses had been incurred during their prior audit
of SDP in 2000. Nonetheless, a $3,227,388 cost share balance remains unmet by SDP. We did not
question the unmet $3,227,388 cost share balance because the questioned NSF funded costs of $1.5
million reduced NSF allowed costs such that the cost sharing of $32,334,375 previously audited and
accepted by the auditors placed SDP's current cost share at an acceptable proportionate level.
However, if NSF allows all of the $1.5 million of questioned costs, SDP would be below its
required level of costs sharing, with the result being $862,707 of excess Federal costs. We have
attached to this memorandum the auditor's computation of excess federal costs should NSF allow
all of the $1.5 million of questioned costs for NSF award ESR-9453043.

Similarly, SDP still did not track or monitor the costs it incurred for its NSF grants by NSF
budget category. Instead, SDP grouped the cost categories of materials and supplies, publication,
consultant services, subawardees, and other direct costs into one general ledger account called
"other." SDP could neither provide accounting system data nor explain the types of expenditures
it had incurred for 18% of the costs claimed to NSF in the "other" account for Award No. ESR-
9453043 and 27% of "other" account costs claimed to NSF for Award No. ESI-0085055. We
did not question costs deemed unreliable due to SDP's inadequate tracking or monitoring of the
costs it incurred for its NSF grants by NSF budget category. However, the auditors did question
a significant amount of the aforementioned costs because SDP could not provide supporting
documentation for the reclassified costs that the auditors subsequently selected as part of the
engagement testing.

Moreover, SDP lacked an adequate system and policies and procedures for the fiscal monitoring
and accounting of subawardee costs it incurred for its NSF awards. As indicated above, SDP
commingled the accounting of subawardee costs with other expenses in an account entitled "other."
Therefore, SDP could neither determine how much of its NSF funds it expended for subawardee
costs, nor could it provide documentation from its accounting system to support the subawardee
costs it claimed to NSF. As such, the auditors were required to perform significant alternative
procedures both at SDP and at two of SDP's subawardees to ascertain the amounts of subawardee
costs SDP incurred, and to satisfy themselves that the subawardee costs charged to the NSF grants
by SDP were allowable. The auditors questioned $125,168 of SDP's subawardee costs.


Finally, SDP did not monitor its budget to actual participant support costs incurred for NSF award
ESI-0085055. As a result, SDP utilized $701,570 of participant support funds for other types of
NSF related costs, but did not obtain prior NSF approval to do so, as required by the NSF grant
terms and conditions. The auditors questioned $701,570 of SDP's participant support costs.

Recommendations

Because of the significant nature of the internal control deficiencies at SDP, and because these
deficiencies were identified in a prior M.D. Oppenheim audit of SDP but were left uncorrected, we
recommend that NSF make no future awards to SDP until corrective action has been implemented
by SDP, and the successful implementation of these corrective actions has been.verified by NSF. In
addition, we recommend that NSF direct SDP to: (a) develop and implement written policies and
procedures that delineate processes for accounting and reporting of NSF funded costs; (b) develop a
process that allows SDP to readily identify costs incurred in its accounting system to the appropriate
NSF budget categories; (c) develop and implement written policies and procedures for the
preparation of Federal Cash Transaction Reports from SDP's official accounting records; (d)
develop and implement written policies and procedures for conducting monthly budget to actual
analysis of NSF expenses to assist SDP in aligning actual expenditures to approved NSF budgets;
(e) develop and implement a system of record retention and retrieval that is easily comprehensible
and that allows for access to SDP records in an efficient and timely manner; (f) develop and
implement a system to identify, account for, monitor, and report cost-sharing expenses; (g) develop
a comprehensive subawardee fiscal monitoring plan; and, (h) develop and implement a process to
monitor its participant support costs against approved NSF budgets.

SDP, in its response, disputed the draft audit findings and recommendations and stated that it
initially misunderstood the purpose of the request for documents for the audit. However, SDP
subsequently provided additional documentation that, as a result, reduced the original amount of
costs questioned by $703,004 to $4,160,047. SDP also stated that it has taken steps since 2005 to
enhance its internal controls, other systems of accountability, policies and procedures, and record
retention. Since these actions occurred subsequent to our audit period of August 31, 2005, the
findings in the report remain as stated for you to address in your audit resolution process.

Please coordinate with our office during the resolution period to develop a mutually agreeable
resolution of the audit findings. The findings should not be closed until NSF determines that all
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented.

We are providing a copy of this memorandum to the Division and Program Directors of EHRIHRD.
The responsibility for audit resolution rests with the Division of Institution and Award Support,
Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that no action be taken
concerning the report's findings without first consulting CAAR at 703-292-8244.
OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector General:

        Reviewed M.D. Oppenheim's approach and planning of the audit;

       Evaluated thequalifications and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with M.D. Oppenheim and NSF officials, as necessary, to
       discuss audit progress, findings, and recommendations;

       Reviewed the audit report, prepared by M.D. Oppenheirn to ensure compliance with
       Government Auditing Standards and the NSF Audit Guide; and

       Coordinated issuance of the audit report.

M.D. Oppenheim is responsible for the attached auditor's report on the School District of
Philadelphia and the conclusions expressed in the report. We do not express any opinion on the
Schedules of Award Costs, internal control, or conclusions on compliance with laws and
regulations.

We thank your staff for the assistance that was extended to the auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-8456.


Attachment


cc: Victor Santiago, Division Director, EHFUHRD
    A. James Hicks, Program Director, EHFUHRD
    K. Tiplady, Director, DGA
                                 School District of Philadelphia
                   National Science Foundation Award Number ESR-9453043
                             Computation of Excess Federal Costs
                             From July 1, 1999 to August 3 1,2001

Computation ofExcess~Federa1Costs

Maximum % of NSF budgeted fimding to total p r o m budget:
NSF award budget                                                   $14,975,401
Cost sharing budget
  Total budget

   NSF % of total budget

Total actual p r o m costs (NSF costs & cost sharind reported:
NSF costs (audited previously for the period 9115195-6130199)      $ 9,857,278
NSF costs (audited previously for the period 711199-8131101)         4,985,040
Cost sharing                                                        29,185,590
        Sub-total                                                   44,027,908
Less: questioned NSF costs                                                 -
      questioned cost sharing                                              -
Plus: additional NSF costs                                                 -
       Cost sharing - additional cost sharing per previous audit     3,148,785

   Adjusted base
   X maximum allowable NSF

Maximum allowable amount of NSF program costs to total

Computation of Excess Federal Costs:
NSF costs claimed
Less: questioned NSF costs
Plus: additional NSF costs

  Net allowable NSF costs                                           14,842,318
  Less: maximum allowable amount of NSF costs to total              13,979,611

Excess Federal Costs
THE SCHOOL DISTRICT OF PHILADELPHIA
           440 North Broad Street
      Philadelphia, Pennsylvania 19130

  National Science Foundation Award Numbers
                 ESR-9453043
                 ESI-0085055


              Financial Schedules
                      and
         Independent Auditors’ Reports

  For the Period July 1, 1999 to August 31, 2005




                                          This audit was performed by:

                                   M.D. Oppenheim & Company, P.C.
                                         Certified Public Accountants
                                      210 Lake Drive East, Suite 102
                                      Cherry Hill, New Jersey 08002
                               TABLE OF CONTENTS


                                                                                   Page
Acronyms                                                                             1
Executive Summary:
Background                                                                           3
Audit Objectives, Scope and Methodology                                              4
Summary of Audit Results                                                             5
Follow-Up of Prior Audit Findings                                                    9
Exit Conference                                                                     13
Findings and Recommendations:
Independent Auditors’ Report on Financial Schedules                                 15
Independent Auditors’ Report on Internal Control Over Financial Reporting and on
  Compliance and Other Matters                                                      17
Schedule A-1 – Schedule of Award Costs (NSF Award No. ESR-9453043)                  48
Schedule A-2 – Schedule of Award Costs (NSF Award No. ESI-0085055)                  49
Schedule B-1 – Schedule of Questioned Costs (NSF Award No. ESR-9453043)             50
Schedule B-2– Schedule of Questioned Costs (NSF Award No.
 ESI-0085055)                                                                       53
Schedule C-1 – Schedule of Adjustments and Reclassifications (NSF Award No.
 ESR-9453043)                                                                       60
Schedule C-2 – Schedule of Adjustments and Reclassifications (NSF Award No.
 ESR-0085055)                                                                       61
Schedule D – Schedule of Cost Sharing (NSF Award Nos. ESR-9453043 and
  ESI-0085055)                                                                      62
Schedule E – Summary Schedule of Awards and Results                                 63
Notes to Financial Schedules                                                        66
Appendix A – Auditee’s Comments to Report                                           68
Acronyms



Acronym    Explanation of Acronym

DACS       Division of Acquisition and Cost Support

DGA        Division of Grants and Agreements

DIAS       Division of Institution and Award Support

FCTR       Federal Cash Transactions Report

GPM        Grant Policy Manual

GSA        General Services Administration

MTDC       Modified Total Direct Costs

NSF        National Science Foundation

OIG        Office of Inspector General

OMB        Office of Management and Budget

PI         Principal Investigator

RFA        Research for Action

SDP        The School District of Philadelphia

USI        Urban Systemic Initiative




                                                       1
EXECUTIVE SUMMARY




                    2
BACKGROUND

We were engaged to audit the funds awarded by the National Science Foundation (NSF) to
the School District of Philadelphia (SDP) under award numbers ESR-9453043 and ESI-
0085055 for the period July 1, 1999 to August 31, 2005. The School District of Philadelphia
is an independent home rule school district established by the Education Supplement to the
Philadelphia Home Rule Charter in December 1965. For financial reporting purposes, SDP
is a component unit of the City of Philadelphia’s Comprehensive Annual Financial Report.

SDP, as an independent legal entity, and as a Federal awardee, is required to follow the cost
principles specified in Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local and Indian Tribal Governments, and the federal administrative
requirements contained in OMB Circular A-102, Grants and Cooperative Agreements with
State and Local Governments, as well as the provisions for financial management systems
and cost sharing contained in the federal administrative requirements in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations. The following
information is pertinent for each of the awards we were engaged to audit.

No. ESR-9453043. NSF awarded cooperative agreement number ESR-9453043 to SDP for
the period September 15, 1995 to August 31, 2001 in the amount of $14,975,401 to operate
an Urban Systemic Initiative (USI) Program. The overall mission of the USI Program was to
improve the scientific and mathematical literacy of all students in various USI cities; to
provide mathematics and science fundamentals which would permit all students to
participate fully in a technological society; and, to enable a significantly greater number of
those students to pursue careers in mathematics, science, engineering and technology. Total
cost share required for this award was $35,561,763.

We were engaged to audit this award for the period July 1, 1999 to August 31, 2001, as a
follow-up of a prior audit we performed for the period September 15, 1995 to June 30, 1999,
and completed in January 2000. SDP reported cumulative expenses of $4,985,040 for grant
number ESR-9453043 to NSF for the audit period July 1, 1999 to August 31, 2001. Total
expenditures for the entire award period were $14,842,318. SDP also claimed $29,185,590
of cost sharing to NSF for the period September 15, 1995 to June 30, 1999 but was required
by the grant terms to incur total cost share of $32,334,375. SDP could not provide any
information on, or documentation for, an amount of cost sharing reported to NSF for the
audit period July 1, 1999 to August 31, 2001.

No. ESI-0085055. NSF awarded cooperative agreement number ESI-0085055 to SDP for
the period September 1, 2000 to August 31, 2005 in the amount of $8,144,803 to operate an
Urban Systemic Program (USP). SDP was required to provide $1,406,887 in cost share for
this award. The USP was the merger of the USI Program and the Comprehensive
Partnership for Mathematics and Science Achievement Program. The overall mission of
USP was to promote systemic reform of science and mathematics education for all students
K - 12. The USP also included pragmatic components that sought to foster partnerships
between urban school districts and two and four-year colleges and universities to enable
research on educational practice and learning.    SDP reported cumulative expenses of
$8,144,803 for award number ESI-0085055. SDP also claimed $1,613,290 of cost sharing to
NSF.
                                                                                        3
AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit engagement were to:
   1. Determine whether SDP’s Schedules of Award Costs present fairly, in all material
      respects, the costs claimed on the Federal Cash Transactions Reports (FCTR) and if
      the costs claimed, including cost sharing, are in conformity with Federal and NSF
      award requirements.
   2. Identify matters concerning instances of noncompliance with laws, regulations, and
      the provisions of the award agreements pertaining to the NSF awards and weaknesses
      in SDP’s internal control over financial reporting that could have a direct and material
      effect on the Schedules of Award Costs and SDP’s ability to properly administer,
      account for, and monitor its NSF awards.
   3. Determine whether the costs incurred under subawardee funds awarded by SDP to the
      Franklin Institute, LaSalle University and Research for Action, were documented and
      allowable under the terms and conditions of the subawardee agreements, and NSF and
      Federal regulations.

We were engaged to audit in accordance with auditing standards generally accepted in the
United States of America; Government Auditing Standards (June 2003 Revision) issued by
the Comptroller General of the United States; and the National Science Foundation Audit
Guide, September 1996, as applicable, and have issued our disclaimer of opinion dated
September 25, 2006. Accordingly, we planned and attempted to perform an audit to obtain
reasonable assurance about whether the amounts claimed to the National Science Foundation
as presented in the Schedules of Award Costs (Schedules A-1 and A-2), were free of material
misstatements.

We were unable to determine whether $4,160,047 of the approximately $13 million of direct
and associated indirect costs claimed by SDP to NSF for NSF award ESR-9453043 and NSF
award ESI-0085055 were allowable, allocable, and reasonable in accordance with applicable
Federal cost principles and NSF award terms and conditions. This occurred because SDP
could not provide reliable information from its accounting system to support the amounts it
claimed to NSF as incurred grant expenses; and, could not provide adequate source
documentation to support the costs claimed on its NSF awards. Consequently, we were
unable to test material portions of claimed costs necessary to meet our objectives.




                                                                                            4
SUMMARY OF AUDIT RESULTS


We were engaged to perform an audit on the costs claimed in financial reports submitted to
the National Science Foundation as well as cost sharing provided by SDP on the NSF awards
audited. These costs and costs questioned are shown in the Schedules of Award Costs
(Schedules A-1 and A-2) and are summarized as follows:

                                                                              Questioned
   Award             Award                                   Questioned         Cost
   Number            Budget            Claimed Costs         NSF Costs         Sharing

ESR-9453043       $ 14,975,401   (A)   $ 4,985,040     (B)   $ 1,525,171
ESI-0085055          8,144,803   (C)     8,144,803             2,634,876

 Total            $ 23,120,204         $ 13,129,843          $ 4,160,047

Cost Sharing on
 ESR-9453043      $ 35,561,763   (A)   $   (D)                                $       -0-

Cost Sharing on
 ESI-0085055       $ 1,406,877   (C)   $ 1,613,290                            $       -0-

(A) For the award period September 15, 1995, to August 31, 2001.
(B) Costs claimed for the audit period July 1, 1999, to August 31, 2001.
(C) For the period September 1, 2000 to August 31, 2005. This period comprises both the
    award period and the audit period.
(D) SDP could not provide any evidence that cost sharing was incurred or reported for the
    audit period July 1, 1999 to August 31, 2001. However, we reviewed $32,334,375 in
    cost sharing expenses during our prior audit of SDP performed in 2000. Therefore,
    $3,227,388 of required cost share remains unmet by SDP. NSF will address unmet cost
    share during its audit resolution process.

We were unable to determine whether material amounts of claimed costs that SDP charged to
NSF award numbers ESR-9453043 and ESI-0085055 for the audit period of July 1, 1999 to
August 31, 2005 were allowable, allocable, and reasonable in accordance with Federal cost
principles and the NSF award terms and conditions. For these reasons, we were unable to
express an opinion on the claimed costs reflected on Schedules A-1 and A-2 of this report.
We questioned $4,160,047 of claimed federal costs, which represented 32% of the costs SDP
reported to NSF.

SDP could not provide reliable information from its accounting system to support the
amounts it claimed to NSF as incurred grant expenses; could not provide adequate source
documentation to support the costs claimed on its NSF awards; and did not maintain a
system to identify, account for, monitor and report cost sharing. Moreover, each of these
deficiencies were already identified by us in an audit we conducted at SDP for NSF award
number ESR-9453043 for the period September 15, 1995 to June 30, 1999. Our report dated
                                                                                        5
January 12, 2000 indicated that SDP had an inadequate system of record retention and
retrieval, inadequate accounting and reporting of cost sharing, and a lack of monitoring of
expenditures to NSF approved budget categories. Each of these deficiencies has been left
uncorrected for the past several years and has, in fact, become more egregious since our
previous audit.

SDP could not locate time and attendance reports for employees charged to its NSF awards
for the period July 1, 1999 to November 30, 2002, resulting in questioned salaries and wages
of $1,784,023 and associated fringe benefits of $713,610. Of the time and attendance reports
that SDP could locate, documentation was still missing for $108,412 of salaries, wages, and
fringe benefits. These amounts represented 100% of the salaries and wages and fringe
benefits for NSF award number ESR-9453043 and 44% for NSF award number ESI-
0085055. In addition, SDP could not locate documentation to support certain fringe benefits
and non-personnel costs totaling $654,024. We also questioned $73,240 of indirect costs
related to the direct costs we questioned.

We also noted that SDP utilized $701,570 of participant support funds for other program
expenses without written approval from NSF as required and questioned this amount.
Finally, SDP’s lack of monitoring of subawardee activities resulted in $125,168 of
questioned subaward costs.

SDP had a number of internal control deficiencies which we consider to be material and that
contributed to these questioned costs. In general, SDP’s system of internal controls as it
relates to accounting and record retention for its NSF awards is significantly deficient.
Specifically:


   • SDP did not track or monitor the costs it incurred for its NSF grants by NSF budget
     category. Instead, SDP grouped the cost categories of materials and supplies,
     publication, consultant services, subawardees, and other direct costs into one general
     ledger account called “other.” SDP could neither provide accounting system data nor
     explain the types of expenditures it had incurred for $1,007,459 (18%) of the costs it
     claimed for NSF grant ESR-9453043 and $2,203,726 (27%) of the costs it claimed for
     NSF grant ESI-0085055. Because SDP could not obtain such information from its
     accounting system, it attempted to prepare electronic spreadsheets listing the NSF
     grant expenses that it had incurred. During this process, SDP made $1,433,113 of
     adjustments and reclassifications of direct costs, and $60,531 of adjustments and
     reclassifications to indirect costs for incurred expenses for NSF grants ESR-9453043
     and ESI-0085055. However, after preparing several different electronic spreadsheets
     of NSF grant cost categories, SDP still could not provide a reliable accounting of how
     it spent all of the NSF grant funds. We did not question costs deemed unreliable due
     to lack of accounting system data, but did question a significant amount of the
     aforementioned costs because SDP could not provide supporting documentation for
     the costs it reclassified that were subsequently selected as part of our testing universe.

   • SDP lacked an adequate record retention and retrieval system. SDP’s system of
     record retention was in a state of disarray. SDP could not provide $3.2 million (63%)
     of the $5.1 million source documentation we requested to support the costs it claimed
                                                                                             6
      on its NSF grants. Likewise, when SDP did provide requested documentation, the
      retrieval of that documentation required an inordinate amount of time (4 1/2 months),
      even though the documents were being retrieved from an off-site facility that was
      operated directly by SDP.

   • SDP also lacked a system to identify, account for, monitor and report cost sharing it
     contributed to both NSF awards. Because of the deficiencies in SDP’s cost sharing
     system, and because of SDP’s deficiencies in record retention, SDP could not provide
     any evidence that cost sharing was incurred or reported for the audit period July 1,
     1999 to August 31, 2001, for award ESR-9453043. We did verify that $32,334,375 in
     cost share expenses had been incurred during our prior audit of SDP in 2000.
     Nonetheless, a $3,227,388 cost share balance remains unmet by SDP. NSF will
     address unmet cost share during its audit resolution process.

   • SDP lacked an adequate system and policies and procedures for the fiscal monitoring
     and accounting of subawardee costs it incurred for its NSF awards. As indicated
     above, SDP commingled the accounting of subawardee costs with other expenses in
     an account entitled “other.” Therefore, SDP could neither determine how much of its
     NSF funds it expended for subawardee costs, nor could it provide documentation
     from its accounting system to support the subawardee costs it claimed to NSF. As
     such, we were required to perform significant alternative procedures both at SDP and
     at two of SDP’s subawardees to ascertain the amounts of subawardee costs SDP
     incurred and to satisfy ourselves that the subawardee costs charged to the NSF grants
     by SDP were allowable. As a result of our on-site procedures, we questioned
     $125,168 of SDP’s subawardee costs.

   • SDP did not monitor the budget to actual participant support costs it incurred for NSF
     award ESI-0085055. As a result, SDP utilized $701,570 of participant support funds
     for other types of NSF related costs, and did not obtain prior NSF approval to do so,
     as required by the NSF grant terms and conditions. As a result, we questioned
     $701,570 of SDP’s participant support costs.

The pervasiveness of the financial management deficiencies at SDP suggests an overall
control environment at SDP that warrants immediate corrective action toward establishing
good internal controls and compliance with federal award terms and conditions. Until the
corrective actions recommended in this report are addressed, NSF has little or no assurance
that SDP has and will spend NSF award funds on authorized purposes. SDP’s lack of
adequate accounting systems and written policies and procedures for its NSF award financial
activities place SDP’s awards at a high risk that misstatements, in amounts that would be
material in relation to the Schedules of Award Costs (Schedules A-1 and A-2), may occur
and not be detected.

Accordingly, we recommend that (DIAS) direct SDP to: (a) develop and implement written
policies and procedures that delineate processes for accounting and reporting of NSF funded
costs; (b) develop a process that allows SDP to readily identify costs incurred in its
accounting system to the appropriate NSF budget categories; (c) develop and implement
written policies and procedures for the preparation of Federal Cash Transaction Reports
from SDP’s official accounting records (d) develop and implement written policies and
                                                                                         7
procedures for conducting monthly budget to actual analysis of NSF expenses to assist SDP
in aligning actual expenditures to approved NSF budgets; (e) develop and implement a
system of record retention and retrieval that is easily comprehensible and that allows for
access to SDP records in an efficient and timely manner; (f) develop and implement a system
to identify, account for, monitor, and report cost-sharing expenses; (g) develop a
comprehensive subawardee fiscal monitoring plan; and, (h) develop and implement a process
to monitor its participant support costs against approved NSF budgets.

SDP responded to the draft report on February 25, 2008. In its response, SDP disputed the
draft audit findings and recommendations and stated that it initially misunderstood the
purpose of the request for documents for the audit. However, SDP subsequently provided
additional documentation that, as a result, reduced the original amount of costs questioned
by $703,004. SDP also stated that it has taken steps since 2005 to enhance its internal
controls, other systems of accountability, policies and procedures, and record retention.

Since these actions occurred subsequent to our audit period of August 31, 2005, the findings
remain as stated and will be addressed by NSF during its audit resolution process. We have
reflected the revised amounts questioned in the executive summary section of the audit report
however the discussions of the individual findings in most cases reflect the original amounts
questioned. The adjustments to the questioned costs are discussed after each finding in the
auditor’s response to the awardee’s comments.

SDP’s response to each finding is included in its entirety in the text of the report following
the auditor’s recommendations. SDP’s response is also presented in its entirety in Appendix
A of this report. Attachments A through V, included in SDP’s response contained proposed
supporting documentation, policies and procedures, accounting reports, correspondence, and
pedagogical documentation from SDP’s Office of Curriculum, Instruction, and Professional
Development. Because Attachments A through V of SDP’s response are voluminous, they
are contained in a separate volume of this report and are available upon request from the NSF
OIG.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the corrective actions have been
satisfactorily implemented.

For a complete discussion of the audit findings, refer to the Independent Auditors’ Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters.




                                                                                            8
FOLLOW-UP OF PRIOR AUDIT FINDINGS



A prior year audit was performed by us on NSF award number ESR-9453043 for the period
September 15, 1995 to June 30, 1999. Our report dated January 12, 2000 identified one
internal control finding and four compliance findings. In particular, that report indicated that
SDP had an inadequate system of record retention and retrieval, inadequate accounting and
reporting of cost sharing, and a lack of monitoring of expenditures to NSF approved budget
categories. Each of these deficiencies has been left uncorrected for the past several years and
has, in fact, become more egregious since our previous audit.


Internal Control Finding:

Inadequate System of Record Retention and Retrieval

We previously reported that SDP did not maintain an adequate system of record retention
and retrieval for its NSF grants. In particular, an inordinate amount of time was necessary
for SDP to attempt to locate records needed for that audit, with some records remaining
unlocated at the end of the engagement.

In response to our audit, SDP stated that it maintained records for a period of not less than
six years. The District also stated that we conducted our review during the same time period
that it was implementing a new financial system. This hampered the District’s ability to fully
concentrate on retrieving documentation to support our audit sample. Furthermore, the
District stated that we had selected old transactions, which were no longer maintained on-
site, and therefore needed to be retrieved from various locations involving many District
employees.

Current Status: Unresolved

Based upon our current audit, SDP has not resolved their record retention and retrieval
system deficiencies. SDP’s system of record retention was in a state of disarray. SDP could
not provide 63% of the source documentation we requested for the current audit to support
the costs it claimed on its NSF grants. Likewise, when SDP did provide requested
documentation, the retrieval of that documentation required an inordinate amount of time (4
½ months), even though the documents were being retrieved from an off-site facility that was
operated directly by SDP. We requested documentation from SDP for $5,132,828 of costs
that it claimed on its NSF grants. Our request consisted of $2,772,735 of salaries, wages and
fringe benefits; and, $2,360,093 of equipment, travel, participant support, and other costs.
SDP could not locate documentation for $3,211,916, or 63%, of the total transactions
selected for the current audit. Further information on this deficiency is disclosed in audit
Finding Number 2 of this report.




                                                                                              9
Compliance Findings:

Inadequate Accounting and Reporting of Cost Sharing

We previously reported that SDP did not maintain accounting records that adequately tracked
or supported amounts that it claimed to NSF as cost sharing. Specifically, we reported that
SDP a) did not maintain a general ledger or other subsidiary record to track amounts it
claimed as cost sharing; b) submitted cost sharing reports to NSF that were based on
budgeted rather than actual costs; and, c) did not maintain source documentation to support
cost sharing. Additionally, we reported that the District did not maintain attendance sheets to
support the cost shared salary costs associated with attendance at meetings and conferences
by principals.

SDP responded to our finding by stating that in the future, it would a) track actual cost
sharing dollars in a subsidiary log, or schedule; b) report actual cost sharing amounts to NSF;
and, c) maintain accounting records to support cost sharing. Additionally, SDP specifically
stated that with respect to cost shared salaries, each individual with some salary claimed as
cost sharing will maintain a log identifying the time the individual spent on grant-related
activities.

Current Status: Unresolved

We found that SDP still lacked a system to identify, account for, monitor and report cost
sharing it contributed to both NSF awards. Because SDP lacked a cost sharing system, and
because of SDP’s deficiencies in record retention, we could not audit the cost share balance
of $3,148,785 for NSF award ESR-9453043. Further information on this deficiency is
disclosed in audit Finding Number 3 of this report.

Lack of Monitoring of Expenditures Compared to Budget

According to our prior audit, the accounting system utilized by SDP did not account for all
expenses by all of the categories specified in the NSF award budget. The account names and
associated account codes utilized by SDP did not correlate to the NSF budget. In addition,
SDP did not prepare any “cross-walk” (either computerized or manual) to allow the tracing
of the expenses incurred in their accounting records to the NSF budget categories.

SDP responded to this finding by stating that the District’s new accounting system could
compare, by federal cost category, budget amounts with amounts that the District would
actually obligate for each NSF award. Additionally, the District ensured that it would
establish separate object codes for any NSF cost categories, such as participant support or
subawardees, that were not reflected in the District’s accounting system.

Current Status: Unresolved

SDP still did not track or monitor the costs it incurred for its NSF grants by NSF budget
category. Instead, SDP grouped the cost categories of materials and supplies, publication,
consultant services, subawardees, and other direct costs into one general ledger account
called “other.” SDP could neither provide accounting system data nor explain the types of
                                                                                            10
“other” expenditures it had incurred for $1,007,459 (18%) of the costs it claimed for NSF
grant ESR-9453043 and $2,203,726 (27%) of the costs it claimed for NSF grant ESI-
0085055. Because SDP could not obtain such information from its accounting system, it
attempted to prepare electronic spreadsheets listing the NSF grant expenses that it had
incurred. During this process, SDP made $1,433,113 of adjustments and reclassifications of
direct costs, and $60,531 of adjustments and reclassifications to indirect costs for incurred
expenses for NSF grants ESR-9453043 and ESI-0085055. However, after preparing several
different electronic spreadsheets of NSF grant cost categories, SDP still could not provide a
reliable accounting of how it had spent all its NSF grant funds charged to the “other” cost
category. Additional information on this deficiency is disclosed in audit Finding Number 1
of this report.

Excess Cash Balances Maintained

In our prior audit, our review of SDP’s Federal Cash Transactions Report (FCTR) quarterly
cash drawdown’s indicated five separate instances (quarters) where the cumulative cash
balance on hand exceeded the five working days disbursement needs as determined by the
U.S. Department of Treasury method for calculating daily cash needs.

In its response to our finding, SDP agreed that its cash balances exceeded its weekly
disbursement needs, and offered several reasons. In one instance SDP stated that it drew
down over $1,000,000 to pay outstanding encumbrances, but did not make the payments as
anticipated, while in another instance the excess balance was attributed to employee error.
SDP stated that it believed these situations to be exceptions and not reflective of the
District’s monitoring of cash balances.

Current Status: Resolved

Based upon our current engagement, SDP has adequately resolved this issue and we noted
that there were no excess cash drawdown’s made by SDP during the current audit period.

Subawardee Compliance Deficiencies

In our prior audit, we reported that several of SDP’s subawardees reported costs to the
District that were in excess of actual costs. This resulted from SDP’s lack of monitoring of
costs reported to SDP by its subawardees. We also noted that invoices submitted to SDP by
its subawardees lacked the proper itemization of charges.

SDP responded to this finding that it believed the subawardees in question were vendors
performing under “fee-for-service” (i.e. fixed price) arrangements and that each had
performed satisfactorily. Therefore, the subawardees were entitled to the full payment and
were not accountable to the District for differences between actual costs and the total amount
paid. Thus, SDP’s position was that the auditors should not have questioned these costs.
SDP also stated that it was discussing with its legal counsel the necessary changes to its
standard contract form to make a clear distinction between fee-for-service and cost-
reimbursement arrangements.


                                                                                           11
Current Status: Unresolved

During the current audit, we noted that SDP lacked an adequate system and policies and
procedures for the fiscal monitoring and accounting of subawardee costs it incurred for its
NSF awards. SDP commingled the accounting of subawardee costs with other expenses in
an account entitled “other.” Therefore, SDP could neither determine how much of its NSF
funds it expended for subawardee costs, nor could it provide documentation from its
accounting system to support the subawardee costs it claimed to NSF. We also noted that
two of the subawardees reported costs to SDP that were in excess of the actual costs per the
books of account. More information on this deficiency is disclosed in audit Finding Number
4 of this report.

Questioned Costs

Our prior audit noted $403,410 of questioned costs including: costs transferred from another
program with no documented rationale in the amount of $193,424; indirect costs of $14,898
in excess of the approved final rate; subawardee costs in the amount of $189,727 that were
unallowable; and, $5,361 of indirect costs related to questioned subawardee costs.

Based upon the written correspondence between NSF’s Audit Resolution Office and SDP,
NSF’s Audit Resolution Office allowed $270,327 of the questioned costs and sustained
$133,083. SDP repaid NSF $133,083 of the sustained questioned costs.




                                                                                          12
EXIT CONFERENCE

We conducted an exit conference on January 17, 2008 at SDP. We discussed findings and
recommendations as well as other observations contained in this report with those attending.

Representing SDP were:

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Representing M.D. Oppenheim & Company, P.C. were:

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Representing the U. S. National Science Foundation was:

     Laura Koren CPA, Audit Manager - OIG




                                                                                         13
FINDINGS AND RECOMMENDATIONS




                               14
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


      INDEPENDENT AUDITORS’ REPORT ON FINANCIAL
                     SCHEDULES
We were engaged to audit the costs claimed by The School District of Philadelphia (SDP) to
the National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR)
for the NSF awards listed below for the period July 1, 1999 to August 31, 2005. In addition,
we were also engaged to audit the amount of cost sharing claimed on these awards for the
period July 1, 1999 to August 31, 2005. Schedule A-1 presents financial results for the
period September 15, 1995 to June 30, 1999 that were previously audited by us in a report
dated January 12, 2000. These amounts have not been audited as part of the current audit
period. The Federal Cash Transactions Reports, as presented in the Schedules of Award
Costs (Schedules A-1 and A-2) are the responsibility of SDP’s management.

          Award
          Number                   Award Period                    Audit Period
       ESR-9453043             09/15/95 to 08/31/01            07/01/99 to 08/31/01
       ESI-0085055             09/01/00 to 08/31/05            09/01/00 to 08/31/05

We were unable to determine whether $4,160,047 (32%) of direct and associated indirect
costs claimed by SDP to NSF for NSF award ESR-9453043 and NSF award ESI-0085055
(for the audit periods indicated above) were allowable, allocable, and reasonable in
accordance with applicable federal cost principles and NSF award terms and conditions.
This occurred because SDP could not provide reliable information from its accounting
system to support the amounts it claimed to NSF as incurred grant expenses; and, could not
provide adequate source documentation to support the costs claimed on its NSF awards.
Accordingly, we have questioned $4,160,047 of direct and associated indirect costs claimed
by SDP to NSF for NSF award ESR-9453043 and NSF award ESI-0085055.




                                                                                         15
Since SDP could not provide reliable information from its accounting system to support the
amounts it claimed to NSF as incurred grant expenses; could not provide adequate source
documentation to support the costs claimed on its NSF awards; and, because we were unable
to apply other auditing procedures to satisfy ourselves concerning the allowability,
reasonableness and allocability of expenditures SDP claimed to NSF; the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the
Schedules of Awards Costs (Schedule A-1 and A-2).

Accordingly, we have questioned $4,160,047. Questioned costs are (1) costs for which there
is documentation that the recorded costs were expended in violation of the laws, regulations
or specific award conditions, (2) costs that require additional support by the awardee, or (3)
costs that require interpretation of allowability by NSF’s Division of Institution and Award
Support (DIAS). The final determination as to whether such costs are allowable will be
made by NSF. The ultimate outcome of this determination cannot presently be determined.
Accordingly, no adjustment has been made to costs claimed for any potential disallowance
by NSF.

The accompanying financial schedules were prepared to comply with the requirements of the
National Science Foundation Audit Guide as described in the Notes to the Financial
Schedules, using a comprehensive basis of accounting other than generally accepted
accounting principles, and are not intended to be a complete presentation of SDP’s financial
position in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards and the provisions of the National
Science Foundation Audit Guide, we have also issued our report dated September 25, 2006,
on our consideration of SDP’s internal control over financial reporting and on our tests of its
compliance with certain provisions of laws, regulations, the NSF award agreements and other
matters. The purpose of that report is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
the National Science Foundation Audit Guide and should be considered in assessing the
results of our audit.

This report is intended solely for the information and use of SDP’s management, NSF, SDP’s
cognizant Federal audit agency, the Office of Management and Budget, and the Congress of
the United States and is not intended to be, and should not be used, by anyone other than
these specified parties.



September 25, 2006



                                                                                            16
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

              INDEPENDENT AUDITORS’ REPORT ON
INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE
                    AND OTHER MATTERS


We were engaged to audit the costs claimed as presented in the Schedules of Award Costs
(Schedules A-1 and A-2), which summarize financial reports submitted by The School
District of Philadelphia (SDP) to the National Science Foundation (NSF) for the awards
listed below and claimed cost sharing and have issued our report of disclaimer thereon dated
September 25, 2006.

          Award
          Number                   Award Period                    Audit Period
       ESR-9453043             09/15/95 to 08/31/01            07/01/99 to 08/31/01
       ESI-0085055             09/01/00 to 08/31/05            09/01/00 to 08/31/05

We did not express an opinion on the Schedules of Award Costs because we were unable to
determine whether $4,160,047 (32%) of direct and associated indirect costs claimed by SDP
to NSF for NSF award ESR-9453043 and NSF award ESI-0085055 (for the audit periods
indicated above) were allowable, allocable, and reasonable in accordance with applicable
federal cost principles and NSF award terms and conditions. This occurred because SDP
could not provide reliable information from its accounting system to support the amounts it
claimed to NSF as incurred grant expenses; and, could not provide adequate source
documentation to support the costs claimed on its NSF awards.

We attempted to conduct our audit of the Schedules of Award Costs as presented in
Schedules A-1 and A-2 in accordance with auditing standards generally accepted in the
United States of America; Government Auditing Standards (2003 revision), issued by the
Comptroller General of the United States; and guidance provided in the National Science
Foundation Audit Guide, September 1996, as applicable. We were unable to obtain
sufficient documentation to support the financial activity and the costs claimed to NSF and
we were unable to satisfy ourselves by other auditing procedures that those financial
activities were supported.




                                                                                         17
INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and attempting to perform an audit of the Schedules of Award Costs (Schedules
A-1 and A-2) for the period July 1, 1999 through August 31, 2005, we considered SDP’s
internal control over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedules and not to provide an opinion
on the internal control over financial reporting. Accordingly, we do not express such an
opinion.

We noted, however, certain matters described below involving internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could
adversely affect SDP’s ability to record, process, summarize and report financial data
consistent with management’s assertions in the financial schedules. Reportable conditions
we found are described in Finding Numbers 1 through 5 in the following pages.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control elements does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters related
to internal control over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions also considered to be
material weaknesses. We consider all of the reportable conditions described above to be
material weaknesses.

COMPLIANCE AND OTHER MATTERS

Compliance with applicable Federal laws, regulations, and NSF award terms and conditions
is the responsibility of SDP’s management. As part of obtaining reasonable assurance about
whether the financial schedules are free of material misstatement, we performed tests of
SDP’s compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on
the determination of the financial schedule amounts. However, providing an opinion on
compliance with these provisions is not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards and
which are described in the following pages.




                                                                                             18
This report is intended solely for the information and use of SDP’s management, the
National Science Foundation, the cognizant Federal audit agency, the Office of Management
and Budget, and the Congress of the United States and is not intended to be and should not
be used by anyone other than these specified parties.




September 25, 2006




                                                                                       19
FINDINGS

Finding 1. Lack of an Adequate Financial Management System for Accounting and
Reporting of NSF Costs

The School District of Philadelphia (SDP) did not have an adequate financial management
system and internal control process for the accounting and reporting of NSF award costs,
even though SDP maintained a sufficient overall financial management system to account for
all other types of SDP costs. Indeed, SDP could not provide reliable information from its
accounting system to support the amounts claimed to NSF as incurred grant expenses.

As stated in NSF’s Grant Policy Manual (GPM), Section 301, SDP is responsible for prudent
management of all expenditures and actions affecting its NSF grants. Moreover, GPM
Section 410 states that NSF grantees are required to have financial management systems that
meet requirements of Section 21 of OMB Circular A-110. That circular requires awardee
financial management systems to provide:

   • Accurate, current, and complete disclosure of the financial results of each award;
   • Records that adequately identify the source and application of funds;
   • Effective control over accountability of all funds, assuring that all funds are used
     solely for authorized purposes;
   • Comparison of outlays with budget amounts for each cost category in accordance
     with provisions of applicable federal and award requirements; and,
   • Accounting records, including cost accounting records, supported by source
     documentation.

OMB Circular A-102 also requires accurate disclosure of the financial results and the records
that identify adequately the source and application of funds and effective control over and
accountability for all funds.

We began our audit by requesting that SDP provide us with a listing from its accounting
system of all the expenses it claimed to NSF on its Federal Cash Transaction Report (FCTR)
for NSF grants ESR-9453043 and ESI-0085055 for the period July 1, 1999 through August
31, 2005. SDP could not provide this information from its accounting system. In fact, SDP
attempted several times throughout this engagement, without success, to provide a listing of
grant expenses incurred from its accounting system that equaled the total amount it had
claimed to NSF by cost category.

Instead, we learned that SDP did not track or monitor the costs it incurred for its NSF grants
by NSF budget category. SDP grouped the cost categories of materials and supplies,
publication, consultant services, subawardees, and other direct costs into one general ledger
account called “other.” SDP could neither provide accounting system data nor explain the
types of expenditures it had incurred for $1,007,459 (18%) of the costs it claimed for NSF
grant ESR-9453043 and $2,203,726 (27%) of the costs it claimed for NSF grant ESI-
0085055. Thus, the listing of expenses that SDP provided to us for this engagement was
deficient because we could not determine the types of expenses SDP had incurred for its NSF
grants.

                                                                                           20
When we explained to SDP that it should provide us with a breakdown of expenses by cost
category, SDP could not determine how they spent their NSF grant funds. Because SDP
could not obtain such information from its accounting system, it attempted to prepare a
“crosswalk” of its NSF grant expenditures, e.g., an electronically prepared spreadsheet listing
by cost category the NSF grant expenses that SDP had incurred. During the process of
preparing these spreadsheets, SDP made $1,433,113 of adjustments and reclassifications of
direct costs, and $60,531 of adjustments and reclassifications to indirect costs for the
expenses it incurred for NSF grants ESR-9453043 and ESI-0085055. However, after several
attempts, and preparing several different “crosswalk” spreadsheets of NSF grant cost
categories, SDP still could not provide a reliable accounting of how it had spent its NSF
grant funds.

This circumstance was further exacerbated by the fact that SDP could not provide us with
any worksheets, expenditure reports or other documentation that it claimed it used to prepare
the FCTRs it submitted to NSF. Likewise, of the FCTR records SDP did provide to us, we
did not see any indication of reviews or other processes conducted by SDP management to
validate that what it had claimed on the FCTR it submitted to NSF was accurate. The
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did advise us that xxx had
reviewed and verbally approved the FCTR SDP submitted to NSF each quarter prior to its
submission to NSF. The xxxxxxxxxxxxxx, however, could not produce any documentation
to support these actions.

Despite the several attempts SDP made to provide information from its accounting system to
support the amounts it claimed to NSF, there were numerous unexplained variances between
the NSF approved budget and the costs incurred per SDP’s books and records. As indicated
above, SDP could not account for a significant percentage of the expenses it had claimed to
NSF for the grant funds it received. Moreover, this circumstance existed even though we
previously reported in our 2000 audit that SDP did not utilize its accounting system to
monitor budget to actual expenditures, that it did not account for its grant expenses by NSF
budget categories, and that SDP had advised NSF’s Audit Resolution Office it had taken
appropriate steps to correct these deficiencies.

Although we attempted to determine the causes for the continued deficiencies in SDP’s grant
accounting, we were unable to do so. The fiscal personnel that were associated with the NSF
grants under audit were no longer employed by SDP, and as such, we were unable to
interview these individuals to obtain information on the processes they utilized to obtain NSF
grant expenditure data from SDP’s accounting system or to prepare the FCTRs submitted to
NSF. Current SDP personnel were unable to explain why these accounting deficiencies still
remained unchanged or how they had calculated the amounts of expenditures by cost
category that were claimed to NSF.

SDP’s inability to provide us with a reliable accounting of the costs it incurred for its NSF
grants ESR-9453043 and ESI-0085055 resulting in material questioned costs, coupled with
the fact that this same deficiency remained unchanged from our prior 2000 audit of SDP,
contributed to our disclaiming an opinion on this audit.


                                                                                            21
Recommendation 1

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support verify that SDP has:

   1. Developed and implemented written policies and procedures that delineate processes
      for accounting and reporting of NSF funded costs.

   2. Developed a process that allows SDP to readily identify costs incurred in its
      accounting system to the appropriate NSF budget categories. Such process could
      include either an enhancement to SDP’s current accounting code structure to coincide
      with NSF budget categories or the preparation of supplemental accounting worksheets
      which would link data from SDP’s current accounting system to NSF budget
      categories.

   3. Developed and implemented written policies and procedures for the preparation of
      Federal Cash Transaction Reports from SDP’s official accounting records.
      Additionally, these written policies and procedures should include processes for
      maintaining all source data and worksheets that support all costs reported on the
      FCTR.

   4. Developed and implemented written policies and procedures for conducting monthly
      budget to actual analysis of NSF expenses to assist SDP in aligning actual
      expenditures to approved NSF budgets.

Auditee’s Response 1

The SDP disputes this finding and the accompanying recommendations.

The SDP has in place the internal controls and accounting systems necessary to meet its
obligations under its funding agreements with federal grantor agencies. Indeed, as
acknowledged at page 21 of the draft audit report, “SDP maintained a sufficient overall
financial management system to account for all other types of SDP costs.” Accordingly,
there is no call for remedial actions on the SDP’s part and/or further oversight by NSF. This
is particularly true given that the SDP no longer receives any financial assistance from NSF.

The SDP has also taken the following steps to enhance its internal controls and other systems
of accountability:

       • As of 2005, the SDP completed phasing in the Advantage accounting software
         system. This system allows the SDP to track expenditures according to both
         federal and non-federal grant requirements. For example, the coding structure
         used by Advantage is arranged according to “Fund-Agency-Organization-
         Activity-Object-Reporting Category.” The Advantage system’s chart of accounts
         is based on the Commonwealth of Pennsylvania’s Chart of Accounts.
         Specifically, the four digit activity code (describing the type of expenditure
         according to Instructional, Professional Development, Parental Involvement, etc.)
         and the four digit object code (differentiating expenditures by major object, e.g.,
         Salaries - 1000, Contracted Services - 3000, Supplies – 6000, etc.) provide ample
         opportunity to classify grant expenditures according to the particular requirements
                                                                                         22
          of each award. This flexibility in use is evident in the Advantage structure for the
          SDP’s federal Individuals with Disabilities Education Act (IDEA) grant, where
          the SDP has created twelve separate activity codes to track and report
          expenditures. See Exh. A (sample IDEA tracking report).

       • The SDP has developed written procedures related to cash draw downs (see
         Exh. B) as part of a comprehensive grant management policy and procedure
         document. For all grants, source data and worksheets are maintained and are
         traceable to the support costs reported on the FCTR.

       • The SDP has developed and implemented policies providing for generation of
         budget-to-actual reports and policies that are distributed monthly to all program
         managers across the SDP. See Exh. C (budget to actual instructions to managers
         and sample report). Managers at all levels of the organization are required to
         review those reports in addition to more detailed systems typically maintained at
         the program level. In addition, grant managers review and approve periodic
         financial reporting required by the grantor. These procedures permit accurate,
         current, and complete disclosure of the financial results of The SDP’s federally-
         funded activities in compliance with the specific financial reporting requirements
         of each of its federal awards.

In light of the above, the SDP maintains a system of accounting and internal controls
sufficient to safeguard federal funds against loss and/or misuse, that permits current and
accurate reporting of financial status, enhances accountability, and ensures that awarded
funds are expended for their intended purposes.

Auditors’ Response to Auditee’s Response 1

SDP provided in their response documents intended to illustrate SDP’s “steps to enhance its
internal controls and other systems of accountability”. All of the provided documents
(Exhibits A to C) are for processes and controls for periods subsequent to the end date of the
NSF awards audit period of August 31, 2005. Exhibit A (sample of IDEA tracking report)
illustrates a “cross walk” from the IDEA accounting records to a program budget on a
Commonwealth of Pennsylvania, Department of Education program for fiscal year 2008.
Exhibits B (written procedures related to cash drawdowns) and C (budget to actual
instructions to managers and sample report) dated August 2007 and October 2005,
respectively, are subsequent to the NSF audit end date of August 31, 2005. Apparently, SDP
has presented these exhibits to illustrate the adequacy of SDP’s internal controls and
accounting systems. However, these documents and implied procedures (which are
subsequent to the audit period) have not been audited by us and therefore we have no opinion
as to whether they would correct the deficiencies noted in the finding.

With regard to the comment that “SDP maintained a sufficient overall financial management
system to account for all other types of SDP costs” (which is stated in the finding), SDP has
not addressed the finding statement regarding the specific lack of accounting controls for
NSF funded program costs. We acknowledge our acceptance of SDP’s overall controls
related to processing of accounting transactions. However, we found that SDP’s processes
for accounting for specific NSF costs by award budget category was not adequate.

                                                                                           23
Therefore, the finding remains as stated and should not be closed until this recommendation
has been adequately addressed and NSF determines that the corrective actions have been
satisfactorily implemented.

Finding 2. Lack of an Adequate Record Retention and Retrieval System

SDP failed to provide 63% of the source documentation we requested to support the costs it
charged to its NSF grants. As such, SDP could not demonstrate that the NSF funds it
expended and claimed to NSF actually supported its NSF grant programs.

CFR Title 2, Part 215 (OMB Circular A-110), Subpart C, 215.21 (b) (7) states that
recipients’ financial management systems shall provide for “accounting records including
cost accounting records that are supported by source documentation.” NSF’s Grant Policy
Manual (GPM) Section 350, Records Retention and Audit, requires grantee’s financial
records, supporting documents, statistical records and other records pertinent to the grant to
be retained by the grantee for three years from submission of the Final Project Report. In
addition, the NSF Director and the Comptroller General of the United States, or any of their
duly authorized representatives shall have access to any pertinent books, documents, papers
and records of the grantee organization to make audits, examinations, excerpts and
transcripts.

SDP’s system of record retention was in a state of disarray. SDP could not provide 63% of
the source documentation we requested to support the costs it claimed on its NSF grants.
Likewise, when SDP did provide requested documentation, the retrieval of that
documentation required an inordinate amount of time, even though the documents were
being retrieved from an off-site facility that was operated directly by SDP. SDP’s retrieval
process encompassed a period of four and a half months to locate only 36% of the
documentation requested to support costs SDP claimed on its NSF grants.

For this audit, we requested documentation from SDP for $5,132,828 of costs that it claimed
on its NSF grants. Our sample consisted of $2,772,735 of salaries, wages and fringe
benefits; and, $2,360,093 of equipment, travel, participant support, and other costs.
However, SDP could only provide adequate documentation for $1,835,002 or 36% of the
total transactions we selected. Thus, SDP could not locate documentation for $3,297,826, or
63%, of the total transactions selected. The following is a summary of the missing
documentation and the resulting $3,297,826 of questioned costs (see Schedules B-1 and B-2
for the questioned costs details):

                                                    Award Number          Award Number
                  Cost Category                     ESR-9453043            ESI-0085055

      Salaries and wages                              $   783,759           $ 1,000,264
      Fringe benefits                                     388,187               463,371
      Permanent equipment                                   8,022                41,742
      Travel                                                2,849                 1,436
      Participant support costs                           239,464               211,290
      Other                                                81,336                76,106

         Total costs missing documentation            $ 1,503,617           $ 1,794,209
                                                                                           24
SDP management advised us that its inadequate record retention and retrieval system
resulted from the relocation of SDP’s administrative offices to a new building approximately
one year prior to our audit. As a result of this relocation, thousands of archived file boxes
were in the storage facility in a haphazard manner.

Additionally, all non-personnel cost source documentation was filed alphabetically by the
name of the SDP accounts payable staff person who prepared the documents for payment
processing. Therefore, in order to retrieve these documents, SDP staff needed to know who
had prepared the specific document requested and the date it was prepared. SDP staff
turnover, coupled with the death of the long-time Director of Accounts Payable (who created
this record retention system), left this document retrieval process onerous at best for the
current SDP staff.

More importantly, this inadequate record retention and retrieval system existed even though
we previously reported in our 2000 audit of SDP that SDP lacked an adequate record
retention system, and that SDP had advised NSF’s audit resolution it had taken appropriate
steps to correct the deficiencies. Indeed, SDP’s failure to produce significant amounts of
source documentation to support the costs it claimed to NSF resulting in material questioned
costs, coupled with its inaction to correct this previously reported deficiency, was yet another
factor that contributed to our disclaimer of opinion for this audit.

Recommendation 2

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support verify that SDP has developed and implemented a
system of record retention and retrieval that is easily comprehensible and that allows for
access to SDP records in an efficient and timely manner.

Auditee’s Response 2

A. Questioned Costs

The SDP disputes this finding.

The questioned costs associated with this finding appear to fall into six categories: (1)
salaries and wages, (2) fringe benefits, (3) permanent equipment, (4) travel, (5) participant
support costs, and (6) other. The following addresses the questioned costs in each of these
categories in turn:

       1. Salaries and Wages – $783,759.00 (ESR-9453043), $1,034,659.00 (ESI-0085055)

       The lion’s share of the costs questioned as part of Finding #2 relate to employee
       salaries charged to the two awards. The report indicates that the SDP failed to
       produce any original time and attendance records for the entire period audited for
       ESR-9453043 and for September 1, 2000 through November 30, 2002 under ESI-
       0085055. See Draft Report at 36, 39. Given the absence of this or similar
       documentation, the auditors conclude that all salaries and wages paid out of the
                                                                                      25
        awards during the subject time periods are unsupported. At the SDP’s request during
        the exit conference, the auditors provided to the SDP a list of employees whose time
        records were missing. See Exh. D. Of the SDP staff members identified, all but two
        were allocated 100% to the awards.

        This finding rests largely on the misapplication of federal cost principles. Although it
        is not explicit in the text of the draft report, it appears that the finding relies on the
        requirement in OMB Circular A-122 that an awardee support salary charges through
        “[r]eports reflecting the distribution of activity of each employee . . . whose
        compensation is charged, in whole or in part, directly to awards.” OMB Circ. A-122,
        Att. B, § 8.m(2) (emphasis added).

        OMB Circular A-122, however, do not apply to the SDP’s awards from NSF, and the
        applicable cost principles contain no similar requirement for personnel time and
        activity reporting. Cost allowability for federal award expenditures by units of state,
        local, and tribal governments is determined in accordance with OMB Circular A-87 –
        not OMB Circular A-122, which applies to awards to private not-for-profit entities.
        See 45 C.F.R. § 602.22(b). 1 Under OMB Circular A-87, salary and wage charges
        “will be based on payrolls documented in accordance with generally accepted practice
        of the governmental unit and approved by a responsible official(s) of the
        governmental unit.” OMB Circ. A-87, Att. B, § h(1). Grantees need only maintain
        “personnel activity reports or equivalent documentation” to support the allocation of
        salaries and wages for “employees work[ing] on multiple activities or cost objectives .
        . . .” Id. at § h(4). By contrast, an awardee may support salary charges for employees
        working exclusively on “a single Federal award or cost objective” through
        certifications prepared by the employee or his/her supervisor at least every six months
        stating that the employee worked solely on that program for a particular period. Id. at
        § h(3).

        The SDP maintains documentation in its files sufficient to meet the salary support
        standards in OMB Circular A-87. The SDP runs its payroll processing functions
        through its Advantage accounting software system. SDP payroll staff enters all
        employee time and attendance information for each pay period into Advantage. See
        Exhs. E (Advantage Payroll manual), F (payroll histories for 2000, 2002; leave
        history for pay periods covered by OIG request). Such data is then stored in
        Advantage for later retrieval as necessary. The SDP thus relies on an electronic
        method of recording employee time and attendance for payroll purposes, and the
        absence of paper records showing the same information is in no way inconsistent with
        either institutional policies or the SDP’s obligations under OMB Circular A-87.


        1
           The SDP notes that the OIG relies throughout the draft report on OMB Circular A-110 – OMB’s
“Uniform Administrative Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Nonprofit Organizations” – as authority governing the SDP’s operation and administration of
the subject awards. The SDP, however, is a special purpose unit of state government, and is therefore subject to the
requirements of OMB Circular A-102 – “Grants and Cooperative Agreements with State and Local Governments”
(codified in NSF regulations at 45 C.F.R. Part 602) – rather than those of A-110. As set forth in the text above, the
SDP is likewise subject to the cost principles in OMB Circular A-87.


                                                                                                                 26
The SDP otherwise satisfied the salary documentation requirements in the cost
principles, having prepared “Summary Proposal Budgets” for submission to NSF (and
at NSF’s behest) throughout the course of both awards covering budget periods of
varying lengths. See Exh. G (budgets and budget details). Each of these proposals
showed that the individuals and/or positions listed in the SDP’s earlier budgets as
working exclusively on NSF-related activities continued to do so. In addition, the
periodic budget proposals were prepared and submitted to NSF by these employees’
direct supervisor – i.e., the program director(s) for the NSF awards – thus meeting the
authentication criterion under the cost principles.

Accordingly, the salary charges for those SDP employees working 100% on the two
NSF awards are properly supported and are therefore allowable. These charges
represent $1,677,405.00 of the $1,818,418.00 in questioned salary costs in the draft
audit report, leaving $141,013.00 (i.e., the amount comprising the salaries and wages
allocated to the NSF awards without contemporaneous time records showing the
distribution of employee effort) in undocumented salary costs.

2. Fringe Benefits – $388,187.00 (ESR-9453043), $477,129.00 (ESI-0085055)

The draft audit identifies the above amounts as questionable costs paid out of the
SDP’s two NSF awards based largely on the same rationale as that underlying the
questioned salary costs.

In light of the discussion in Section A.1., above, $670,963.00 of the $865,316.00 in
questioned employee fringe benefits charged to the two awards were all properly
documented. This $670,963.00 figure consists of the fringe benefit costs attributable
to employees devoted exclusively to NSF-related activities, less the $137,948.00 in
health insurance premiums listed at pages 36 and 40 of the draft report.

3. Permanent Equipment – $8,022.00 (ESR-9453043), $41,742.00 (ESI-0085055)

The draft audit report states that the SDP failed to produce vendor invoices for two
equipment purchases paid out of ESR-9453043 and for three paid out of ESI-
0085055. The two payments under ESR-9453043 were to Fisher Scientific
($xxxxxxxx on December 8, 2000), School Mart ($xxxxxxx on March 23, 2000), and
the three payments under ESI-0085055 were all to Dell Marketing LP ($xxxxxxx x,
$ xxxxxxxx, and $ xxxxxxxx, paid on November 29, 2001, May 14, 2003, and August
26, 2002, respectively).

The SDP has performed a renewed search of files, this time to locate evidence of the
obligations (other than vendor invoices) underlying each of the identified
transactions. This search revealed purchase orders and proof of receipt of goods for
the Dell Marketing LP transactions of November 29, 2001 ($xxxxxxxxx) and August
26, 2002 ($xxxxxxxxx). See Exh. H (Dell Marketing documentation). This
documentation is sufficient to support the $ xxxxxxxx of the subject permanent
equipment costs.


                                                                                    27
        4. Participant Support Costs – $239,464.00 (ESR-9453043), $211,290.00 (ESI-
           0085055)2

        OIG further asserts that the SDP lacked supporting documentation for forty-seven
        payments relating to “participant support” under ESR-9453043, seven payments for
        similar purposes under ESI-0085055, and payments to nineteen SDP employees for
        time in attending NSF-funded trainings. The expenditures under ESR-9453043 total
        $239,464.00, and consist (with one exception) of payments to vendors identified in
        the ledger. The remaining payment represents disbursements to vendors aggregated
        in a single ledger entry as a “journal voucher” totaling $15,754.00. Similarly,
        $154,728.00 of the total $211,290.00 in questioned participant support costs under
        ESI-0085055 relate to two journal vouchers recorded on the SDP’s books.

        The SDP has performed a renewed search of files, this time to locate evidence of the
        obligations (other than vendor invoices) underlying each of the identified
        transactions. The SDP has retrieved from those files documentation to support all of
        the transactions with a document prefix of “PV” listed at page 59 of the draft report,
        as well as the following “PV” documents listed at page 58: PV AV700033182 01
        (April 25,2000 $ xxxxxxxx payment to National Council of Teachers); PV
        AV700057610 01 (September 28, 2000 $ xxxxxx payment to Texas Instruments); PV
        AV700109263 01 (September 17, 2001 $ xxxxxx payment to D&H Distributors); PV
        AV700015939 01 (December 21, 1999 $ xxxxxxx payment to D&H Distributors).
        See Exh. I (participant support cost documentation). This documentation is sufficient
        to support $28,802.00 of the subject participant support costs under ESR-9453043
        and $50,545.00 under ESI-0085055.

        As to the journal vouchers (the transactions with a document prefix of “JV”) relating
        to participant support costs under ESI-0085055, those entries are comprised of
        numerous vendor payments individually listed elsewhere on the SDP’s ledger which
        the SDP has aggregated for the purpose of redistributing costs among budget periods.
        That is, where certain costs paid out of a given budget year were eligible charges
        under the prior budget year, the SDP would aggregate those eligible charges, move
        them to the prior budget year in a single journal voucher entry, then record an
        offsetting entry on the ledger for the budget year in which the costs originally
        appeared. By way of illustration, “JV GFS00006368” is a journal voucher entered on
        August 7, 2003 in the amount of $130,883.00. See Draft Report at 59. That journal
        voucher appears on the SDP’s books along with an offsetting entry on the same date
        and under the same transaction number. Exh. J (justification for JV GFS00006368).
        The SDP has confirmed that JV GFS00006368 consists of 190 payment vouchers paid
        out of Year 2 ½ funds that were eligible expenditures for the first six months of Year
        2. Similarly, “JV OMBG0000664” (September 24, 2004 for $23,845.00) represents
        numerous payment vouchers initially paid from Year 4 funds that were moved to



        2
           The $211,290.00 figure does not include $701,570.00 in participant support costs questioned on the
grounds that the SDP failed to obtain prior agency approval for rebudgeting of that amount. The SDP addresses that
matter separately in the response to Finding #5.
                                                                                                              28
        Year 3. Exh. K (listing of payment vouchers under JV OMBG0000664). The
        documentation for each of these two journal vouchers is therefore in the ledger itself.3

        Finally, the SDP has located supporting records for all but two of the payments to
        employees listed at page 60 of the draft audit report, thus reducing the original
        amount of questioned costs from $6,017.00 to $768.00. See Exh. L.

        5. Travel – $2,849.00 (ESR-9453043), $1,436.00 (ESI-0085055)

        The SDP has located supporting documentation for both of the questioned travel
        expenditures. See Exh. M.

        6. Other – $81,336.00 (ESR-9453043), $76,106.00 (ESI-0085055)

        OIG states that the SDP was unable to produce backup invoices for four expenditures
        under ESR-9453043 totaling $81,336.00, and six expenditures under ESI-0085055
        totaling $71,106.00.

        The SDP has performed a renewed search of files, this time to locate evidence of the
        obligations (other than vendor invoices) underlying each of the identified
        transactions. The SDP has retrieved from those files documentation to support the
        three transactions with a document prefix of “PV” listed at page 59 of the draft report.
        See Exh. N (“other cost documentation).

        The remaining three “other” transactions listed for ESI-0085055 are journal voucher
        entries. Two of these fall under JV OMBG0000664 and consist, once again, of re-
        recording costs initially paid out of Year 4 funds as costs payable out of the SDP’s
        Year 3 account. See Exh. K. The third journal voucher, JV CPCHR 343, represents
        charges for copying services performed by the SDP’s print shop at a cost of 3.85 cents
        per page. See Exh. O (print shop documentation).

        Similarly, three of the four “other” transactions for ESR-9453043 are journal
        vouchers. The first, JV GFS00000838, relocated $7,294.00 in Year 6 costs to Year 5.
        See Exh. P. The second and third journal vouchers, JV BGXGR803473 and JV
        BGXGR803441, represent aggregated costs recorded individually under the SDP’s
        old accounting system. These journal voucher entries were included on the SDP’s
        books to ensure accuracy and consistency in fund accounting when it commenced
        implementation of its new Advantage accounting system some time after the start of
        the NSF budget period. That is, rather than having portions of the funds available and
        incurred expenditures for that budget period reported on two different systems of
        accounting, the SDP opted to show the previously recorded costs grouped by category
        in Advantage, thus creating a complete picture of the relevant NSF budget year
        expenditures in the Advantage system.


        3
          Although the SDP believes that documentation for certain of the purchase vouchers listed in Exhibits J
and K were previously provided in the course of the audit, the SDP stands ready to provide any additional
documentation that OIG might like to review as support for these costs.
                                                                                                            29
   B. Policy Recommendations

   Regarding the propriety of OIG’s recommendation that NSF withhold all further awards
   pending resolution of the record retention finding, the SDP refers to its response to
   Finding #1.

   In addition, the SDP amended its Accounts Payable manual filing system in FY07 and
   implemented an electronic scanning and retrieval application in FY08. The specific steps
   implemented are as follows:

          Documents Processed in FY 2007 (July 1, 2006 – June 30, 2007)—Documents
          were manually filed as follows: 1) Payment Vouchers by payment voucher
          number, 2) Purchase order invoices in alphabetical order by vendor name, and 3)
          Employee reimbursement documents in alpha order by the employee’s last name.

          Current Document Retention and Retrieval Process in FY08 (July 1, 2007 to
          current)—All payment vouchers (PV) (excluding imprest fund and employee
          reimbursement transactions) and purchase order (PO) invoices are imaged by an
          outside contractor, Data Management Internationale (“DMI”), and available for
          retrieval via the Application Xtender software. Any supporting payment
          documentation submitted is also scanned and available for retrieval.

          Imprest fund documents are filed manually by payment voucher number and
          employee reimbursement documents are still filed manually in alphabetical order
          by the employee’s last name.

          Documents are imaged weekly and available one week later for on demand
          desktop retrieval by Accounts Payable. Documents can be retrieved from the
          application using payment voucher number and/or purchase order number. In
          addition, the hard copies of documents are currently being retained by the SDP.

          To ensure all processed payments have been imaged, there is a reconciliation
          process of imaged documents by DMI to the financial system (Advantage) file
          from the SDP. An exception report is produced weekly and submitted to
          Accounts Payable for resolution.

Since implementing the document retention and retrieval system in July of 2006, the SDP
has been able to retrieve all requested documents required for the City of Philadelphia
Controller’s Year-end audits. In addition, the SDP has been successful in manually
retrieving documents processed during fiscal 2007.

Auditors’ Response to Auditee’s Response 2

In Part B of SDP’s response, they indicated various “steps implemented to amend its
accounts payable manual filing system” in fiscal years 2007 and 2008. These steps for
processes and controls are for periods subsequent to the end date of the NSF awards audit
period of August 31, 2005. These procedures have not been audited by us and therefore we

                                                                                        30
have no opinion as to whether they would correct the deficiencies noted in the finding in
regards to record retention and retrieval.

In Part A of SDP’s response, they provided explanations and documents which they purport
to eliminate the questioned costs. The following is our response to the SDP explanations and
documentation for the questioned costs by category:

Salaries and Wages:

SDP asserts that OMB Circular A-122 was the criteria utilized as the basis for the
questioning of salaries and wages related to SDP’s inability to locate time and attendance
records.. No where in the audit report do we state or infer that OMB Circular A-122 was the
criteria we used for the questioning of salaries and wages. Instead, we cited OMB Circular
A-110 (Uniform Administrative Requirements for Grants and Agreements with Institutions
of Higher Education, Hospitals and Other Nonprofit Organizations) as the criteria for
sufficiency of record retention requirements. SDP further asserts that OMB Circular A-87
(Cost Principles for State, Local and Indian Tribal Governments) should have been the
criteria cited. They go on to state that “SDP maintains documentation in its files sufficient to
meet the salary support standards in OMB Circular A-87”. SDP cited several sections from
OMB Circular A-87 relative to salary and wage charges. One SDP citation was Attachment
B (Selected Items of Cost), Section 8, paragraph h (Support of Salaries and Wages) sub-
paragraph (1) which states “Charges to Federal awards for salaries and wages, whether
treated as direct or indirect costs, will be based on payrolls documented in accordance with
generally accepted practice of the governmental unit and approved by a responsible
official(s) of the governmental unit.” In addition, SDP cites paragraph h(3) and h(4) which
require either “periodic certifications … signed by the employee or supervisory official
having first hand knowledge of the work performed by the employee” (for employees
working solely on a single Federal award) or “a distribution of their salaries or wages …
supported by personnel activity reports or equivalent documentation” (for employees
working on multiple activities).

SDP’s utilization of the above OMB Circular A-87 references did not include the following
pertinent OMB Circular A-87 requirements related to the documentation of salaries and
wages:

   • Section 8, paragraph h(5) Personnel activity reports or equivalent documentation
     must meet the following standards:

               (a) They must reflect an after the fact distribution of the actual activity of
               each employee,

               (b) They must account for the total activity for which each employee is
               compensated,

               (c) They must be prepared at least monthly and must coincide with one or
               more pay periods, and

               (d) They must be signed by the employee.
                                                                                                31
We will clarify the misconception on the part of SDP regarding the interpretation and
application of the OMB Circular A-87, Section 8 as it pertains to SDP’s salary and wage
processes. SDP’s usual practices did not include the preparation of personnel activity
reports or equivalent documentation. Instead, SDP utilized a “time and attendance” record
wherein an employee only recorded whether or not they were present at the school for the
day. The SDP employee did not record specific activities in which they participated on the
time and attendance record. It is the recordation of the specific activities of the employee
that constitutes a personnel activity report and not whether or not the employee was present
for the day at the school. We audited such time and attendance records for the period
December 1, 2002 to the end of award number ESI-0085055. Therefore, citing OMB
Circular A-87 Section 8, paragraph h(1) which states “Charges to Federal awards for salaries
and wages, whether treated as direct or indirect costs, will be based on payrolls documented
in accordance with generally accepted practice of the governmental unit and approved by a
responsible official(s) of the governmental unit” is not applicable since SDP did not
maintain personnel activity reports or equivalent documentation for its employees.

SDP submitted various documents in Exhibits E to G which they believed met the criteria of
OMB Circular A-87. Our review of these documents determined that they consisted of a
payroll users guide (Revised October 2005), payroll histories, leave histories and NSF budget
and budget details. None of these documents meet the source documentation criteria of
OMB Circular A-110 or the requirements of OMB Circular A-87. Therefore, the questioned
costs totaling $1,784,023 remain as stated.

Fringe Benefits:

The questioned costs remain as stated because we did not accept the documents and
explanations provided by SDP for the questioned costs for salaries and wages Additionally,
there was $137,948 of questioned costs related to missing documentation for employee
health insurance premiums. SDP did not provide an explanation or documentation related to
this questioned costs, therefore, they remain as stated.

Permanent Equipment:

SDP’s submission of the documentation contained in Exhibit H, related to two purchases
from Dell Marketing LP, was accepted as adequate support for questioned costs totaling
$ xxxx. The receiving reports from Dell did include the amount of the purchases; therefore,
these were accepted in lieu of invoices from Dell. Since no other documentation was
submitted for the balance of the missing equipment purchases, the questioned costs now total
$ xxxxxx.

Participant Support Costs:

SDP provided three Exhibits (I to K) which they believe addresses $234,075 of questioned
costs. Based upon our review of the documents provided we accepted documentation for
$22,625, explained as follows:

   • Exhibit I included acceptable documentation for two purchases totaling $17,924 for
     award number ESR-9453043. The other documents submitted were not acceptable
                                                                                    32
         since they included only bills of lading and packing receipts (without dollar amounts)
         and “Print Screens” from SDP’s Advantage accounting system (which does not
         constitute source documentation for an expenditure of NSF funds).

   • Exhibits J and K, which related to the lack of documentation for two journal
     vouchers, were not acceptable. SDP only provided the “Print Screen” from SDP’s
     Advantage accounting system (which does not constitute source documentation for an
     expenditure of NSF funds) and the detail to the journal vouchers for $130,883 and
     $23,845. This detail is only a listing of the various vendors which were included in
     the transfer of costs from one NSF program year to another. The documentation that
     would support these individual vendor details (vendor invoices and receiving reports)
     were not provided by SDP. If this listing had been provided during the course of the
     audit we would have requested (on a sample basis) documentation to support the
     allowability of these participant support costs.

   • Exhibit L contained attendance/sign-in sheets, of which we accepted as
     documentation sixteen of the nineteen payments questioned, resulting in acceptable
     support of $4,701 of the total $6,017 from award number ESI-0085055.

Travel:

SDP provided as part of Exhibit M certain documentation that they believe would support the
total questioned costs of $4,285. Based upon our review of the documents provided we
accepted documentation for $3,594, explained as follows:

   • For the expenditure of $2,849 we accepted the documentation provided.

   • For the expenditure of $1,436 (which had not been identified by SDP during the
     audit), SDP submitted acceptable documentation in the form of a hotel bill for an
     employee’s out of town travel totaling $745. The balance of the questioned amount of
     $691 represents payments to three other individuals, for which no detailed travel
     documents were submitted. Therefore, the $691 remains questioned.

Other:

SDP provided three Exhibits (K and N to P) which they believe addresses $157,442 of
questioned costs. Based upon our review of the documents provided by SDP, we accepted
documentation for $25,667, explained as follows:

   • Exhibit N included acceptable documentation for two purchases totaling $25,667 for
     award no. ESI-0085055. The documentation submitted by SDP for the remaining
     questioned costs of $9,993 was not acceptable since it consisted of a hand written
     note and “Print Screens” from SDP’s Advantage accounting system (which does not
     constitute the source documentation required for an expenditure of NSF funds).




                                                                                            33
   • Exhibit O was not acceptable since it included “Print Screens” from SDP’s Advantage
     accounting system (which does not constitute the source documentation required for
     an expenditure of NSF funds).

   • Exhibits K and P, related to the lack of documentation for six journal vouchers, were
     not acceptable. SDP provided the “Print Screen” from SDP’s Advantage accounting
     system (which does not constitute the source documentation required for an
     expenditure of NSF funds) and the detail to the journal vouchers totaling $118,718.
     The journal voucher detail is only a listing of the various vendors which were
     included in the journal voucher’s transfer of costs from one NSF program year to
     another. Source documentation that would have supported these individual vendor
     details (vendor invoices and receiving reports) were not provided by SDP. If this
     listing had been provided during the course of the audit, we still would have requested
     (on a sample basis) source documentation to support the allowability of these
     participant support costs.

   • SDP did not address a questioned cost of $3,064 related to a missing invoice. This
     expenditure remains a questioned cost.


In summary, we reduced questioned costs for this finding by a total of $86,639 ($20,844 for
award number ESR-9453043 and $65,795 for award number ESI-0085055) based on
additional adequate supporting documentation provided by SDP. However, this report
finding should not be closed until the recommendations have been adequately addressed and
NSF determines that the corrective actions have been satisfactorily implemented.

Finding 3. Lack of a System to Identify, Account for, Monitor, and Report Cost
Sharing

SDP lacked a system to identify, account for, monitor and report cost sharing it contributed
to both NSF awards, raising questions as to the reliability and integrity of the $1,613,290 of
cost sharing reported for NSF award ESI-0085055 and the lack of SDP’s ability to
substantiate that it had incurred or reported to NSF the remaining $3,227,388 of cost sharing
for NSF award ESR-9453043.

NSF’s Grant Policy Manual (GPM), Section 333.6, Cost Sharing Records and Reports, and
OMB Circular A-110, Section 23, require grantees to maintain records of all costs claimed as
cost sharing, and states that those records are subject to audit. These regulations also state
that cost-sharing expenses must be verifiable from the recipient’s records, not be included as
contributions to any other federal award, or funded by any other federal award. OMB
Circular A-110, Section 23, also states that, to be accepted as part of the recipient’s cost
sharing, expenditures must be necessary and reasonable for proper and efficient
accomplishment of project or program objectives and allowable under applicable cost
principles.

SDP’s accounting system, as currently configured and utilized by SDP personnel, does not
allow for the recordation and tracking of expenses incurred as cost sharing. As a result, SDP
could not provide adequate information on the amount of cost sharing it had incurred and/or
                                                                                           34
claimed to NSF for its NSF awards. Likewise, SDP did not maintain adequate
documentation to support the cost sharing it claimed to NSF.

Because of the deficiencies in SDP’s cost sharing system, and SDP’s deficiencies in record
retention (see Finding 2, above), we could not audit the remaining cost share balance of
$3,227,388 for NSF award ESR-9453043. Additionally, our audit of the $1,613,290 of cost
sharing SDP claimed to NSF for award ESI-0085055 resulted in our questioning $1,385,224
or 86% of the cost share claimed for this award, due to inadequate documentation. The
details of our audit of SDP’s cost sharing are presented below.

Award Number ESR-9453043:

Award number ESR-9453043 was for a 5 year program with an original award period of
September 15, 1995 to August 31, 2000. An amendment was approved for this award to
extend the award period to August 31, 2001. The total required cost sharing for this award
was $35,561,763. M.D. Oppenheim & Company, P.C. performed a previous audit on this
award and issued a report dated January 12, 2000. That audit covered the period September
15, 1995 to June 30, 1999. For the period of our prior audit, SDP reported $29,185,590 of
cost sharing to NSF. However, our audit of supporting records that SDP was able to provide
at that time disclosed that SDP actually provided $32,334,375 of cost sharing.

For the current audit, we requested that SDP provide us with accounting records and
documentation for the cost sharing it reported to NSF for the current audit period of July 1,
1999 to August 31, 2001, and in total for the entire award period. According to the total
required cost sharing for this award, SDP was required to provide an additional $3,227,388
of cost sharing ($35,561,763 less the $32,334,375 of cost sharing we validated during our
previous audit).

SDP officials informed us that they were unable to locate any summaries of the cost sharing
reported and/or incurred, including for the period covered by our previous audit. SDP
officials also could not locate the related supporting documentation for cost share for the
current audit period of July 1, 1999 to August 31, 2001.

In an attempt to obtain some form of documentation to determine the final amount of cost
share SDP reported to NSF for this award, we requested a copy of the final project report.
However, SDP was unable to locate the final project report for this award. We also
attempted, but could not obtain, a copy of the final report from NSF’s program office. The
final project report, had we obtained a copy, should have included information on the total
cost sharing SDP reported to NSF.

Because SDP could not provide us with accounting records or any type of documentation for
the cost share on Award ESR-9453043 for our current audit period, we were unable to audit
the remaining $3,277,888 balance of cost share for this award. Due to the lack of support of
this cost share there would be excess Federal costs amounting to a maximum of $862,707.
At the present time this amount of excess Federal costs has not been questioned since the
NSF questioned costs of $1,525,171 has lowered NSF’s share of the total program costs to a
level that the cost sharing audited of $32,334,375 is acceptable.

                                                                                          35
Award Number ESI-0085055:

Award number ESI-0085055 was for a 5 year program with an award period of September 1,
2000 to August 31, 2005. The total required cost sharing for this award was $1,406,877. In
November 2003, SDP originally claimed a cumulative total of $1,362,530 of cost sharing to
NSF for the period September 1, 2000 to August 31, 2003. However, NSF disallowed the
$1,362,530 of cost sharing claimed by SDP because NSF determined that SDP had used
Federal funds for cost sharing purposes.

In November 2004 SDP revised its amount and source of cost sharing and reported cost
sharing to NSF in the amount of $1,613,290, which exceeded the required award amount of
$1,406,887. Our audit of the $1,613,290 of cost sharing claimed by SDP to NSF resulted in
inadequate documentation for $1,385,224 of cost sharing (see Schedule D-1). SDP’s
deficiency in cost sharing also resulted in NSF incurring greater than its proportionate share
of award costs. These amounted to excess Federal costs of $616,365, which are calculated in
Schedule B-3 of this report.

We were advised by SDP personnel that they were unaware of the requirements to
adequately account for cost sharing. In addition, per discussion with current SDP personnel,
the inability to locate adequate accounting records and documentation was related to either
the reorganization of the program office, results of staff turnover or the relocation of the SDP
central office in 2005.

Nonetheless, SDP’s lack of an adequate system to identify, account for, monitor, and report
cost sharing is an egregious matter. SDP’s lack of an adequate cost share system raises
concerns as to whether or not SDP in fact met its cost sharing requirements for its NSF
awards. Indeed, as indicated in the “Follow-Up of Prior Audit Findings” section, we
reported that SDP’s general ledger did not include any accounting entries detailing actual
cost sharing and that SDP did not maintain detailed records of actual cost sharing in a readily
available and organized format in our report dated January 12, 2000. In fact, SDP asserted to
NSF’s audit resolution team during the audit resolution process of our prior audit that it had
implemented improvements to their cost sharing system. However, we found during our
current audit that the improvements SDP asserted it had made to NSF did not occur, and this
circumstance contributed to our disclaimer on this audit.

Recommendation 3

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support verify that SDP has established a system to
identify, account for, monitor, and report cost-sharing expenses and, at a minimum ensure
that:

    • Cost sharing for NSF awards is separately tracked, accounted for, and verifiable in
      SDP’s accounting records; is not included as a contribution for any other federally-
      assisted project or program; is necessary and reasonable for proper and efficient
      accomplishment of project and program objectives; is allowable under applicable
      cost principles; and, is not paid by the federal government under another award.

                                                                                             36
     • All NSF awards with cost-sharing requirements are immediately identified and
       reported to the Accounting Department so that cost sharing expenditures can be
       tracked, associated with the NSF award, and reported as they are incurred.

     • Cost sharing costs incurred and claimed on NSF awards are appropriately designated
       as such as they occur to establish that they are reasonable, allocable, and allowable to
       NSF awards.

     • Cost sharing policies and procedures are developed and documented, and are
       consistent with NSF requirements.

Auditee’s Response 3

The SDP disputes this finding. Contrary to the statements in the draft report, the SDP has
adequately documented its cost-share for ESI-0085055.4 As acknowledged at page 50 of the
draft report, the SDP provided the auditors with dates, attendance sheets, and agendas for
each of the training sessions in the sample supporting the amounts claimed in cost-sharing
for the trainings and demonstrating that each was in furtherance of NSF award purposes.
The sole apparent basis for the finding of insufficient documentation was OIG’s unilateral
refusal to accept the training agendas as proof of allocability.

Although the SDP disputes the notion that any further documentation is necessary to justify
its cost-sharing claim, the SDP has located the curriculum training materials for the six
mathematics teacher training sessions listed at page 50 of the draft report, which resulted in
$1,385,224 in questioned cost-sharing. Those documents are contained in Exh. Q, attached
hereto. The curricula serve as double confirmation that the six trainings were NSF-related
activities. From the SDP’s understanding, based on OIG’s statements in the exit conference,
the scripts satisfy OIG’s concerns over allocability. Therefore, the $1,385,224 of questioned
costs should be removed from the audit (as contained on Schedule D-1 of the audit),
including the $161,365 of Excess Federal Costs as computed on Schedule B-3.

As to the recommendation that NSF withhold any future awards to the SDP until it develops
and implements a system for tracking and reporting cost-share, the SDP refers to its response
to Finding #1. Moreover, to the extent the draft report calls for any further action by the
SDP, the SDP has already established a formalized system for recording, tracking, and
reporting cost-sharing and/or matching costs under all of its federal awards. In the fall of
2005, the SDP instituted the following procedures designed to ensure that cost-sharing/match
requirements are met on all grants:

        • Consideration of match requirements in the early stages of grant-seeking in
          making strategic decisions about which grants to apply for. All grant
          opportunities over $20,000 are initially reviewed by the SDP’s “Development
          Committee,” which is comprised of high level administrators representing all
          major academic offices (e.g., Curriculum and Instruction, Leadership and

        4
          It does not appear from the text of the draft audit report that OIG questions any costs relating to ESR-
9453043 based on any failure to document cost-sharing. The SDP therefore does not specifically address Finding #3
with respect to ESR-9453043 except to the extent that it bears upon recommended remedial measures.
                                                                                                               37
          Professional Development, etc.) Information about match requirements is now
          included in the briefing that committee members receive about each grant
          opportunity. In making decisions about which opportunities to respond to and
          about what overall approach to take in applying, committee members consider
          what resources exist and which resources may realistically be leveraged for cost-
          sharing/match purposes.

       • Specific and concrete identification of planned cost-sharing/match in all grant
         proposal budgets. During the proposal development process, representatives from
         the SDP’s Office of Management and Budget require program offices to specify in
         concrete terms the source of any non-federally funded programmatic expenditure
         included as part of any plan for cost-sharing/match. In the absence of a specific
         and documentable source of match, the proposal will not be submitted.

       • Post-award meetings with grant managers to determine specific cost-
         sharing/match documentation plan. Upon notification of any grant award, a
         meeting is convened with the program manager(s), representatives from the Office
         of Management and Budget, and other relevant District administrators (e.g., from
         the Office of Grants Development and Support, the Office of Research and
         Evaluation, etc.) A regular item on the agenda for all such meetings is the
         discussion of cost-sharing/match requirements (if any) for the grant in question.
         Action plans for documenting cost-sharing/match expenditures are developed. If
         appropriate, program managers are provided with sample personnel time logs and
         other forms for them to use in documenting match costs. See Exh. R (“Managing
         Your Grant” manual and checklist).

       • Enhanced staffing to carry out cost-share tracking and compliance functions. As
         of 2005, the SDP has increased the number of budget office personnel responsible
         for reviewing cost-sharing requirements for the SDP’s federal awards on an on-
         going basis to ensure that it is meeting those requirements during relevant budget
         periods and that the costs claimed are allowable as cost-share.

In light of these actions and the absence of any current awards from NSF to the SDP, there is
no need for additional oversight or remedial steps to address the conditions identified in
Finding #3.

The draft audit report indicates that the $3,227,388 figure is the remaining amount of
budgeted cost-share after subtracting the $32,334,375 in documented cost-share under ESR-
9453043 for the period from September 14, 1995 through June 30, 1999. Although the draft
audit does not identify any questioned costs in connection with the finding of lack of support
for such residual cost-sharing, the SDP understands from M.D. Oppenheim & Co., P.C., that
this finding could carry with it a determination that the amount of NSF funds charged to the
award were excessive when compared with the documented cost-share. In other words,
should the total otherwise allowable expenditures charged to ESR-9453043 make up a
greater percentage of the total award costs (including the SDP’s cost-share) than
contemplated in the award budget, the allowable NSF charges could potentially be reduced to
a level in proportion to the original budget.

                                                                                           38
The SDP disputes this finding because, among other things, there can be no excess Federal
financial participation in award number ESR-9453043 regardless of draft Finding #3. The
factual predicate for the concern raised in the April 1, 2008 e-mail is the notion that the SDP
expended the full amount of the award, thus obligating the SDP to provide the total cost-
share listed in the budget. In the course of preparing this supplemental response, it became
clear to the SDP that it had not, in fact, exhausted the NSF funds available under ESR-
9453043. Rather, approximately $1,822,500 remained as of August 31, 2000, the original
close of the period of the award. By letter dated December 1, 2000, NSF notified the SDP
that it would be able to access these remaining funds in furtherance of activities under award
number ESI-0085055. See Exh. W at 2. NSF therefore directed the SDP to submit a written
request for a twelve-month extension of the ESR-9453043 award period, along with a request
that ESR-9453043 be treated as a “related” award to ESI-0085055. Id. NSF would then
allow the SDP to use the residual ESR-9453043 for ESI-0085055 purposes and adjust the
latter award amount to account “for the inclusion of the carry-over funds.” Id. The SDP
submitted the request per NSF’s instruction on April 12, 2001, and NSF approved that
request on May 14, 2001. See Exh. X.

NSF thus reduced the funds available under SER-9453043 from $14,842,318 to $13,019,818
– i.e., less than the $13,979,611 that would have represented NSF’s proportionate share of
total ESR-9453043 award costs based on the SDP’s documented cost-share of $32,334,375.
Accordingly, no concerns of excess Federal financial participation should arise in connection
with Finding #3.

Auditors’ Response to Auditee’s Response 3

The curriculum training materials provided by SDP in Exhibit Q have been reviewed and
deemed acceptable to document the training sessions held by SDP in support of $1,385,224
of cost sharing related to NSF award number ESI-0085055. As a result of our acceptance of
SDP’s cost sharing, the excess Federal costs of $616,365 questioned in the draft audit report
is also considered resolved. (Note: Due to the resolution of the excess Federal costs, Exhibit
B-3 was eliminated from the final audit report.)

Additionally, we wish to clarify SDP’s inaccurate comment regarding our acknowledgment
in the draft report that “SDP provided the auditors with dates, attendance sheets, and agendas
for each of the training sessions in the sample …”. SDP did not provide us with any
attendance records during our audit. Our statement in Schedule D-1 indicates that SDP only
provided a computerized spreadsheet which contained teacher names that attended these
sessions. A computerized listing of sessions attended is not an attendance record.

SDP addressed the various deficiencies cited in the lack of a system to identify, account for,
monitor, and report costs sharing. They provided a document (Exhibit R “Managing Your
Grant – A Guide to Administering Grant Funds Through School District Procedures” issued
February 2008). In addition, SDP indicated that they instituted various procedures to
address the internal control deficiencies of the cost sharing system, which were implemented
in the fall of 2005.


                                                                                            39
SDP has presented Exhibit R and the delineation of the various procedures to illustrate the
adequacy of SDP’s internal controls and accounting systems over cost sharing. However,
these documents and procedures (which are subsequent to the audit period) have not been
audited by us and therefore we have no opinion as to whether they would correct the
deficiencies noted in the finding. In regard to SDP’s response to the balance of the cost share
of $3,277,888 on Award ESR-9453043, their explanation is not acceptable to resolve this
finding. SDP stated that they had unexpended NSF award funds of $1,822,500 and therefore
the cost share audited of $32,334,375 was adequate for the award. This is an inaccurate
statement since the entire award was expended. As shown in Schedule A-1 of this report,
SDP had a total NSF funded budget of $14,975,401 and the total reported costs by SDP on
their September 30, 2001 FCTR was $15,661,380, resulting in utilizing 100% of the total
award. NSF will address unmet cost share during its audit resolution process.

This report finding should not be closed until the recommendations have been adequately
addressed and NSF determines that the corrective actions have been satisfactorily
implemented

Finding 4. Lack of Adequate Fiscal Monitoring and Accounting of Subawardee Costs

SDP lacked an adequate system and policies and procedures for the fiscal monitoring and
accounting of subawardee costs it incurred for its NSF awards. As indicated in Finding 1,
above, SDP commingled the accounting of subawardee costs with other expenses in an
account entitled “other.” Therefore, SDP could neither determine how much of its NSF
funds it expended for subawardee costs, nor could it provide documentation from its
accounting system to support the subawardee costs it claimed to NSF. As such, we were
required to perform significant alternative procedures both at SDP to ascertain the amounts
of subawardee costs SDP incurred and at two of SDP’s subawardees to satisfy ourselves that
the subawardee costs charged to the NSF grants by SDP were allowable.

OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to manage and monitor
each project, program and subaward. In addition, Subpart C, Section .21(b)(1) requires
accurate, current and complete disclosure of the financial results of each federally-sponsored
project or program. The NSF Grant Policy Manual, Section 301, also specifies that grantees
are responsible for managing and monitoring subaward performance and exercising prudent
management of all expenditures and actions affecting the grant.

SDP does not properly account for, track or monitor subawardee costs for either of its two
NSF awards. SDP’s current accounting system is not configured to allow for the separate
recording of subawardee costs. Instead, subawardee costs are commingled in the accounting
system with other subcontracted professional services costs in an account entitled “other.”
Moreover, SDP does not maintain subsidiary records to track expenses incurred for each
subawardee, which negates any possibility of comparing actual subawardee costs in total to
the subawardee costs in the approved NSF award budgets. This lack of accounting for
subawardee costs also obviates SDP’s ability to monitor its subawardee costs utilizing
accounting data.

Additionally, SDP does not have any policies and procedures for subawardee monitoring, nor
does SDP conduct any type of monitoring activities of its subawardee such as performing
on-site field inspections of fiscal and program operations.
                                                                                        40
This lack of proper accounting, tracking and monitoring is critical due to the material amount
of subawardee costs budgeted for each of SDP’s NSF awards. For NSF award number ESR-
9453043, the total budgeted subawardee costs were $1,967,509 or 13% of the total award
budget. For NSF award number ESI-0085055, the total budgeted subawardee costs were
$1,234,881 or 15% of the total award budget.

We performed significant alternative procedures at SDP in order to ascertain the amount of
subawardee costs incurred by SDP for each of its’ NSF awards. We requested the names of
subawardees from the SDP program staff and compared this information to the subawardees
delineated in NSF’s award and budget documentation. We also requested that SDP prepare a
detailed computer list of payments, sorted by each subawardee, to determine the total
payments SDP made to its subawardees. We then obtained copies of all applicable
subawardee agreements and any available reports of expenditures for comparison to the
sorted payment lists previously obtained from SDP. As a result of our procedures, we found
that for NSF award number ESR-9453043, SDP incorrectly classified $435,132 of
subawardee costs as “other;” and for NSF award number ESI-0085055, SDP incorrectly
classified $997,981 of subawardee costs as “other.”

In addition to SDP’s misclassification of subawardee costs, we were required to perform
additional on-site procedures at two of SDP’s subawardees to satisfy ourselves that the
subawardee costs charged by SDP to its NSF awards were allowable. As a result of our on-
site procedures, we questioned $125,168 of SDP’s subawardee costs as follows:

                                                 Questioned Costs
                                Award No.            Award No.
   Name of Subawardee          ESR-9453043          ESI-0085055             Total

Research For Action              $ xxxxxx              $ xxxxxx           $ xxxxxx

Franklin Institute                 xxxxxx                xxxxxx              xxxxxx

  Total                           $ 10,850            $ 114,318           $ 125,168

Specifically, for NSF award ESR-9453043, we questioned $ xxxxxx of subawardee costs
claimed by Research for Action (RFA). Of this amount, we questioned $9,770 as
overclaimed costs because the costs claimed by RFA to SDP were more than the amount of
costs recorded by RFA in their official books of record. We questioned the remaining $
xxxxxx because RFA charged salary amounts for four employees to the NSF program that
were in excess of the amounts of their actual salaries.

For NSF award ESI-0085055, we questioned a total of $114,318. RFA claimed $ xxxxxx
more to SDP than the costs recorded in their official books of record. We questioned this
amount. We also questioned $ xxxxxx of the Franklin Institute’s costs because the Institute
claimed more than the costs recorded in their official books of record. We questioned an
additional $ xxxxx for other than personnel costs for which Franklin Institute could not
provide support.



                                                                                           41
These circumstances occurred because SDP did not have policies and procedures in place
that required SDP personnel to monitor subawardee activities and because SDP lacked an
adequate financial management system for accounting and reporting of NSF costs. Such
deficiencies increase the risk for misuse, loss or theft of NSF funds.

Recommendation 4

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support verify that SDP has developed a comprehensive
subawardee fiscal monitoring plan.

Auditee’s Response 4

The SDP disputes the conclusion that it failed adequately to monitor RFA and FI under the
two NSF awards. The SDP structured its contractual relationships with both of these entities
as fee-for-service arrangements, pursuant to which RFA and FI would be entitled to payment
on the basis of deliverables, not on the basis of their costs. See Exh. S (agreements with
RFA and FI). The compensation clause in the relevant contracts does not, however,
contemplate cost reimbursement, but instead directs the vendors to submit quarterly invoices
detailing goods/services delivered, along with a date and place of delivery.

Moreover, it appears that the audit report understates the contractors’ costs attributable to the
NSF awards. The most significant error in this regard appears in the comparisons of costs
claimed by RFA and those recorded on its books for ESI-0085055. See Draft Report at 42-
43. The schedules attached to the draft audit show that fully $ xxxxx of the $ xxxxx in
questioned payments to RFA consist of RFA's charges for indirect costs allocable to the
award. The OIG has questioned those charges because RFA did not specifically book those
costs in its general ledger. RFA's entitlement to recover its indirect costs, however, is simply
a function of applying its indirect cost rate (as duly negotiated with the federal government)
to its modified total direct costs under the agreement. See Exh. T (RFA budget showing
indirect cost rate). That RFA’s books do not show an assignment of indirect costs to NSF-
related activities has no bearing on RFA’s entitlement to recover those costs, nor does it in
any way lead to a conclusion that such costs are unsupported. So long as the costs
comprising RFA’s indirect cost base are documented, indirect costs claimed according to
RFA’s negotiated rate are allowable.

The SDP otherwise refers to its response to Finding #1 for its response to OIG’s
recommendation 4.

Auditors’ Response to Auditee’s Response 4

SDP disputed the questioned costs related to subawardee costs because they believe that
these subawards were not cost reimbursement but rather “fee-for-service arrangements” with
payment based upon deliverables, not on the basis of costs incurred. In addition, SDP
believes the questioned costs specifically related to Research for Action (RFA) are “a
function of applying its indirect cost rate…to its modified total direct costs under the
agreement”. However, it should be noted that both Research for Action and the Franklin
Institute submitted detailed cost reimbursement invoices as documentation for payment/
                                                                                              42
reimbursement. In addition, the award agreement with each entity required the submission
of quarterly invoices which include an itemization of charges; further supporting our position
that payment under the existing contracts with SDP is based upon costs incurred. SDP
contends that part of RFA’s overclaim of expenses was related to RFA not recording indirect
costs in their books of account in the amount of $ xxxxxx. SDP’s position is that RFA is
nonetheless “entitlement to recover its indirect costs”. This explanation is not an acceptable
basis for us to allow the $ xxxxxx. If the indirect cost reimbursement was allowable, our
position is that RFA should have recorded an allocation of their indirect costs in the books of
account related to the SDP subawards. In addition, SDP did not address the differences
between what was in the actual books of record and what was charged to SDP at RFA
detailed in Schedules B-1 and B-2, nor any of the differences reported for Franklin Institute
(FI) in Schedule B-2.

Exhibits (S and T) provided by SDP to us did not contain any relevant information that we
would consider as documentation to address the questioned subawardee costs. Exhibit S
contained agreements with RFA and FI, copies of which we had already obtained form SDP
during the audit. Exhibit T contained an RFA budget showing their indirect cost rate and
budget amount for indirect costs, which is the maximum amount allowed to be reported. A
subawardee on a Federal award is not “entitled” to the indirect costs budgeted. Indirect costs
are a function of the actual direct costs incurred and are limited to the application of the
approved indirect cost rate to the modified total direct cost base.

Based upon the above, the subawardee costs remain questioned. This report finding should
not be closed until the recommendations have been adequately addressed and NSF
determines that the corrective actions have been satisfactorily implemented.

Finding 5. Lack of An Adequate Process for Monitoring Participant Support Costs

SDP did not have an adequate process for monitoring the budget to actual participant support
costs it incurred for NSF award ESI-0085055. As a result, SDP utilized $701,570 of
participant support funds for other types of NSF related costs, and did not obtain prior NSF
approval to do so, as required by the NSF grant terms and conditions.

National Science Foundation Grant General Conditions (GC-1), Article 7 – Participant
Support Costs, states that participant support costs are direct costs for items such as stipends
or subsistence allowances, travel allowances, and registration fees paid to or on behalf of
participants or trainees (but not employees) in connection with meetings, conferences,
symposia, or training projects. (See also GPM Section 618).

According to its September 30, 2005 FCTR, SDP expended the entire $8,1443,803 of funds
available for NSF award ESI-0085055. Of this amount, $3,446,986 was budgeted for
participant support costs. However, SDP claimed to NSF during this audit that they
expended only $2,745,416 for participant support costs. SDP's current financial records also
indicated that the District under spent the funds intended for participant support costs. Since
SDP expended its entire grant funds, and did not expend the entire amount of its budgeted
participant support costs, SDP utilized $701,570 of its NSF funds for costs other than
participant support. SDP also indicated that it did not obtain prior NSF approval before
expending these funds.
                                                                                             43
                                            Approved          Claimed         Underspent
       Award Number ESI-0085055              Budget            Costs            Funds

      Participant Support Costs            $ 3,446,986       $ 2,745,416        $ 701,570

This condition was caused by SDP’s lack of an adequate process for monitoring of
participant support costs in accordance with the approved NSF budget. SDP’s failure to
monitor its participant support costs limits its ability to ensure that participant support funds
are not spent on any other type of costs without prior NSF approval.

Recommendation 5

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support verify that SDP has developed and implemented a
process to monitor its participant support costs against approved NSF budgets. This process
should also include obtaining prior NSF approval for the reprogramming of participant
support funds to other types of costs.

Auditee’s Response 5

The SDP disputes this finding. The bulk of the costs included in the “participant support cost
budget” were not, in fact, participant support costs. The budget justifications and detailed
budget narratives accompanying the original application for assistance under ESI-0085055,
as well as the revised budgets submitted to NSF prior to the award, reveal that the vast
majority of the funds budgeted for “participant support costs” were to go to pay SDP
teachers for their time while attending NSF-related trainings.

These sorts of payments, however, are expressly excluded from NSF’s own definition of
“participant support costs,” and it is therefore at best questionable whether the prior approval
requirement to which OIG refers applied in the first instance. The 1995 and 2002 iterations
of the NSF Grant Policy Manual (i.e., the versions of the manual applicable during the award
period) each define “participant support costs” as “direct costs for items such as stipends or
subsistence allowances, travel allowances and registration fees paid to or on behalf of
participants or trainees (but not employees) in connection with meetings, conferences,
symposia or training projects.” See “National Science Foundation Grant Policy Manual” at §
618.1(a) (July 1995); “National Science Foundation Grant Policy Manual” at § 618.1(a) (July
2002) (emphasis added). Indeed, it was not until NSF issued its June 2007 revisions to the
Grant Policy Manual that the agency sought to include any payments to employees for
training, etc., within the rubric of “participant support costs.” Even then, NSF only
characterized such costs “as participant support if payment is made through a stipend or
training allowance method.” See “National Science Foundation Grant Policy Manual” at §
V.B.8.a(i) (June 2007).

The SDP placed payments to teachers/trainees under the budget heading of “participant
support costs” only after NSF requested that the SDP do so as part of its revision and
resubmission of its funding application. The budget in the original application shows these
payments not as participant support costs, but instead as salaries/wages/fringes. Moreover,
                                                                                         44
the SDP’s classification of these personnel costs in its initial application submission is
consistent with the SDP’s treatment of the same manner of costs under ESR-9453043. The
budgets for that award show that the SDP budgeted costs attributable to teacher wages for
their participation in NSF-supported trainings as salaries/wages/fringes, leaving only a fairly
small portion of the grant funds devoted to “participant support costs.”

In light of the foregoing, the salary payments identified in the budget as “participant support
costs” were not in their nature “participant support costs,” regardless of the name attached to
those payments in any budget document. The SDP was therefore under no obligation to seek
NSF’s prior approval for any rebudgeting to reduce the “participant support cost” line item.
NSF was fully aware of how the SDP planned to use the funds under this line item and
approved of the SDP’s plans. It is accordingly insignificant from an auditing standpoint and
as a matter of law that the SDP (at NSF’s direction) characterized such costs as “participant
support costs.”

Auditors’ Response to Auditee’s Response 5

SDP’s contention that “the bulk of the costs included in the participant support cost budget
were not, in fact, participant support costs” is erroneous. The original budget submitted by
SDP and approved by NSF totaled $3,135,420 of which SDP supported the budget amount
with detailed information that included the following types of costs:

                             Type of Expense                    Amount

                   Participant support - personnel             $ 2,181,450
                   Training materials                              314,640
                   Curriculum materials                            639,330

                     Total                                     $ 3,135,420

Therefore, as required by NSF’s Grant Policy Manual, Section 618, SDP was required to
adhere to its approved NSF budget, , even though some of the costs budgeted would not
normally be included in participant support costs. Thus, the participant costs remain
questioned. This report finding should not be closed until the recommendations have been
adequately addressed and NSF determines that the corrective actions have been satisfactorily
implemented.

Finding 6. Lack of Adequate Submissions of Final Project Reports

During the audit, SDP could not produce the final project report for NSF award number
ESR-9453043, even though this award ended August 31, 2001. We also noted that the final
project report for NSF award number ESI-0085055 was filed with NSF on January 25, 2006,
57 days after the November 29, 2005 deadline for this award which ended August 31, 2005.

The NSF Grant Policy Manual (“GPM”) Section 341 (applicable to NSF award number
ESR-9453043), stipulates that within 90 days following the expiration of the grant a final
project report shall be submitted to the cognizant NSF Program Officer. In addition, the NSF
GPM Section 342 (applicable to NSF award number ESI-0085055) stipulates that within the
                                                                                            45
same 90 day period a final project report must be submitted electronically via the NSF
FastLane system.

According to SDP personnel, the missing report for NSF award ESR-9453043 may be related
to either the reorganization of the program office, staff turnover, or the relocation of the SDP
central office in 2005. SDP personnel also indicated that the late report for NSF award
number ESI-0085055 resulted from SDP program staff turnover just prior to the award’s
ending date. Thus, there was no program staff available to complete the final project report
on a timely basis.

Because SDP could not produce the final project report during the audit for NSF award
number ESR-9453043, and because we could not obtain the final project report from NSF’s
grant file or NSF’s program office, we were unable to determine if SDP met the final project
report requirements for this award at the time of the draft audit report. Additionally, because
the final project report also contained the final total for cost sharing that SDP reported to
NSF, without that report we were unable to verify SDP’s cost sharing SDP for NSF award
number ESR-9453043.

Recommendation 6

We recommend that prior to NSF making any further awards to SDP, NSF’s Director of the
Division of Institution and Award Support (DIAS) verify that SDP has implemented
procedures to ensure adherence to NSF’s required final project report deadlines.

Auditee’s Response 6

With relation to ESR-9453043, the SDP disagrees with this finding. Exhibit U hereto
contains the final project report provided to the NSF and e-mail communication back from
NSF accepting the submission from the SDP as the Final Project Report.

With regard to ESI-0085055, the SDP requested NSF’s permission to submit its final project
report later than ninety days after the close of the award period. NSF granted that request,
and the report was submitted and accepted by the NSF. See Exh. V.

Auditors’ Response to Auditee’s Response 6

Based upon the documentation provided by SDP in Exhibits U and V, the above finding is
considered resolved.




                                                                                             46
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION




                           47
                                                      THE SCHOOL DISTRICT OF PHILADELPHIA
                                                    National Science Foundation Award No. ESR-9453043
                                                                  Schedule of Award Costs
                                                    Award Period: September 15, 1995 to August 31, 2001
                                                        Audit Period: July 1, 1999 to August 31, 2001
                                                                             Final
                                        (A)                                                                        Adjustments             After          Questioned NSF Costs and
                                                                       Claimed Costs                                   and            Adjustments and      Questioned Cost Sharing
                                      Approved        09/15/95 -        07/01/99 -                               Reclassifications    Reclassifications      07/01/99 – 08/31/01
       Budget Category                 Budget       06/30/1999 (B)    08/31/2001(D)          Total              07/01/99-08/31/01    07/01/99-08/31/01      Amount        Reference

     Direct costs:
      Salaries and wages             $ 4,488,230      $ 3,416,178       $     783,759      $ 4,199,937              $                  $      783,759      $ 783,759        B-1
      Fringe benefits                    536,996          591,809             498,637        1,090,446                                        498,637        388,187        B-1
      Permanent equipment                  4,180           39,301              14,226           53,527                                         14,226          8,022        B-1
      Travel                             148,300          585,129             128,719          713,848                                        128,719
      Participant support costs           43,000            7,235           3,168,483        3,175,718                                      3,168,483         221,540       B-1
      Other direct costs:
       Materials and supplies           1,194,061         677,681                              677,681
       Publication costs                   89,913         105,465                              105,465
       Consultant services                445,851         258,758                              258,758
       Computer services
       Subawardees                      1,967,509                                                         (C)            435,132             435,132           10,850       B-1
       Other                            5,661,796        3,968,422          1,007,459        4,975,881                  (435,132)            572,327           81,336       B-1

        Total direct costs             14,579,836        9,649,978          5,601,283       15,251,261                                      5,601,283        1,493,694

     Indirect costs                      395,565          273,754            136,365 (E)       410,119                                       136,365           31,477       B-1

        Sub-total                      14,975,401        9,923,732          5,737,648       15,661,380                                      5,737,648        1,525,171

     Adjustment - books of account
      (over) under claim to NSF                            (66,454)         (619,525)         (685,979)                                     (619,525)

     Repayment of questioned costs
     related to prior audit                                                 (133,083)         (133,083)                                     (133,083)

           Total                     $ 14,975,401     $ 9,857,278       $ 4,985,040        $ 14,842,318             $                   $ 4,985,040        $ 1,525,171

     Cost sharing                    $ 35,561,763     $ 29,185,590      $     (F)          $ 29,185,590            $ 3,148,785          $      (F)
                                                                                                                 (Schedule C-1)
     (A)     Award budget for the period September 15, 1995 to August 31, 2001.
     (B)     Previously audited in a report dated January 12, 2000.
     (C)     SDP books of account did not segregate subawardee costs, see Finding Number 1.
     (D)     The total representing NSF funded costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share of Net
             Disbursements as of the quarter ended September 30, 2001 for the period July 1, 1999 to August 31, 2001. Claimed costs reported above are taken




                                                                                                                                                                                      Schedule A-1
             directly from SDP’s books of account.
     (E)     Indirect costs were budgeted and approved by NSF at a pre-determined rate of 2.49% of modified total direct costs.
     (F)     SDP could not provide any evidence that cost sharing was incurred or reported for the period July 1, 1999 to August 31, 2001. However, we reviewed
             $32,334,375 in cost sharing expenses during our prior audit of SDP performed in 2000. Therefore, $3,227,388 of required cost share is unmet. NSF will
             address unmet cost share during its audit resolution process.
48




     See accompanying notes to this financial schedule.
                                                    THE SCHOOL DISTRICT OF PHILADELPHIA
                                                  National Science Foundation Award No. ESI-0085055
                                                                Schedule of Award Costs
                                                       From September 1, 2000 to August 31, 2005
                                                                         Final

                                                                                                         Claimed Costs       Questioned NSF Costs and
                                                                  (A)                Adjustments             after            Questioned Cost Sharing
                                              Approved          Claimed                   And           Adjustments and                       Schedule
                Budget Category                Budget           Costs               Reclassifications   Reclassifications     Amount         Reference
     Direct costs:
     Salaries and wages                       $ 1,695,378      $ 2,249,759           $                   $ 2,249,759         $ 1,034,659         B-2
     Fringe benefits                              481,533          895,067                                   895,067             477,129         B-2
     Permanent equipment                           16,440          117,761                                   117,761               7,718         B-2
     Travel                                        42,168           18,611                                    18,611                 691         B-2
     Participant support costs                  3,446,986        2,745,416                                 2,745,416             908,159         B-2
     Other direct costs:
      Materials and supplies                     195,270
      Publication costs                            7,903
      Consultant services                        230,000
      Computer services
      Subawardees                               1,234,881                     (B)         997,981            997,981             114,318         B-2
      Other                                       687,300        2,203,726               (997,981)         1,205,745              50,439         B-2

        Total direct costs                      8,037,859        8,230,340                                 8,230,340          2,593,113

     Indirect costs                              106,944            73,111                60,531             133,642(C)           41,763         B-2

        Subtotal                                8,144,803        8,303,451                60,531           8,363,982          2,634,876

     Adjustment books of account
      (over) under claim to NSF                                   (158,648)                                 (158,648)                 -0-

        Total                                 $ 8,144,803      $ 8,144,803           $    60,531         $ 8,205,334         $ 2,634,876
                                                                                    (Schedule C-2)

     Cost sharing                             $ 1,406,887      $ 1,613,290           $         -0-       $ 1,613,290         $        -0-




                                                                                                                                                                 Schedule A-2
     (A)    The total representing NSF funded costs claimed agreed with the expenditures reported on the Federal Cash Transaction Report -Federal Share of Net
            Disbursements as of the quarter ended September 30, 2005. Claimed costs reported above are taken directly from SDP's books of account.
     (B)    SDP books of account did not segregate subcontract costs, see Finding Number 1.
     (C)    Indirect costs were budgeted and approved by NSF at a predetermined rate of 2.49% of modified total direct costs.



     See accompanying notes to this financial schedule.
49
                                                                                   Schedule B-1

                       THE SCHOOL DISTRICT OF PHILADELPHIA
                  National Science Foundation Award Number ESR-9453043
                                Schedule of Questioned Costs
                            From July 1, 1999 to August 31, 2001

1. Salaries and Wages and Fringe Benefits

   We are questioning $783,759 of salaries and wages and $388,187 of fringe benefits for the
   following reasons:

   1. SDP was not able to locate original time and attendance records for this NSF award for the
      entire audit period from July 1, 1999 to August 31, 2001. Based upon the lack of these
      time and attendance records (with no other alternative documentation available) we are
      questioning 100% of the salaries and wages and associated fringe benefits claimed to NSF
      of $783,759 and $313,504, respectively.

   2. We noted during our audit that one employee; the xxxxxx            xxxxxx had a portion of
      their time allocated to this NSF award. This employee did not complete an after-the-fact
      report the percentage/time expended related to this particular NSF award. The allocation of
      this individual’s salary to the NSF award was based upon the budget allocation submitted
      to NSF during the award process. The questioned salaries and wages and associated fringe
      benefits were $43,042 and $17,217, respectively. These questioned salaries and fringe
      benefits are already included in the above questioned costs.

   3. SDP was unable to provide documentation to support employee health insurance benefit
      premiums for the period July 1, 1999 to August 31, 2001. The associated questioned costs
      for these health insurance premiums amounted to $74,683. This amount was comprised of
      health insurance recorded in the following SDP fund accounts:

                                    SDP
                                  Fund No.            Amount

                                    2849              $ 71,838
                                    2859                 2,845

                                                      $ 74,683

2. Permanent Equipment

   We are questioning $8,022 of permanent equipment costs because SDP could not provide
   supporting documentation in the form of a vendor’s invoice to support the costs claimed for
   two expenses.



                                                                                              50
                                                                              Schedule B-1 (Cont.)

                         THE SCHOOL DISTRICT OF PHILADELPHIA
                    National Science Foundation Award Number ESR-9453043
                              Schedule of Questioned Costs (Cont.)
                              From July 1, 1999 to August 31, 2001

3. Participant Support Costs

   We are questioning $221,540 of participant support costs because SDP could not provide
   supporting documentation in the form of a vendor’s invoice to support the costs claimed for
   forty-five expenses.

4. Subawardee Costs

   Research For Action (RFA):

   We are questioning $ xxxxxx of subawardee costs claimed by RFA (a subawardee of SDP) to
   SDP for the following reasons:

   1. The costs reported by RFA did not agree with the amount of costs recorded in their books
      of account resulting in a net overclaim/questioned costs of $ xxxxx, as follows:

                                                 Year Ending June 30, 2000
                                         (A)                 (B)            Difference
                                        Costs             Costs Per        (Over) Under
                                      Reported            Books of            Claim
          Category of Expense          to SDP              Account           (A) - (B)

          Salaries and wages          $ xxxxxx           $ xxxxxx           $ xxxxxx
          Fringe benefits               Xxxxxx             xxxxxx             xxxxxx
          Consultants                   xxxxxx             xxxxxx             xxxxxx
          Supplies                      xxxxxx             xxxxxx             xxxxxx
          Travel                        Xxxxxx             xxxxxx             xxxxxx
          Transcription                 Xxxxxx             xxxxxx             xxxxxx
          Copying                       xxxxxx             xxxxxx             xxxxxx
          Telephone                     Xxxxxx             xxxxxx              xxxxxx

            Total                     $ xxxxxx           $ xxxxxx           $ xxxxxx
   2. In addition to the above we also noted that four employees were charged to the program for
      rates of pay in excess of the actual per the payroll records. The total of excess salaries and
      wages amounted to $ xxxxxx.




                                                                                                 51
                                                                            Schedule B-1 (Cont.)

                         THE SCHOOL DISTRICT OF PHILADELPHIA
                    National Science Foundation Award Number ESR-9453043
                              Schedule of Questioned Costs (Cont.)
                              From July 1, 1999 to August 31, 2001

5. Other Costs

   We are questioning $81,336 of other costs because SDP could not provide supporting
   documentation in the form of a vendor’s invoice to support the costs claimed for four expenses.

6. Indirect Costs

   We are questioning $31,477 of indirect costs based upon the direct costs previously questioned,
   calculated as follows:

                     Category of Questioned Cost                            Amount

         Salaries and wages                                                $ 783,759
         Fringe benefits                                                     388,187
         Permanent equipment                                                   8,022
         Travel                                                                   -0-
         Participant support costs                                           221,540
         Subawardees                                                          10,850
         Other costs                                                          81,336

           Total direct costs questioned                                   1,493,694
           Less: permanent equipment and participant
                 support costs (not in MTDC)                                (229,562)

           Total MTDC costs questioned                                     1,264,132
           Indirect cost rate                                                 2.49%

           Indirect costs questioned                                       $ 31,477




                                                                                               52
                                                                                   Schedule B-2

                      THE SCHOOL DISTRICT OF PHILADELPHIA
                  National Science Foundation Award Number ESI-0085055
                                Schedule of Questioned Costs
                        From September 1, 2000 to August 31, 2005


1. Salaries and Wages and Fringe Benefits

   We are questioning $1,034,659 of salaries and wages and $477,129 of fringe benefits for the
   following reasons:

      1. SDP was not able to locate original time and attendance records for this NSF award for
         the period from September 1, 2000 to November 30, 2002. Based upon the lack of
         these time and attendance records (with no other alternative documentation available)
         we are questioning the salaries and wages and associated fringe benefits claimed to NSF
         of $1,000,264 and $400,106, respectively.

      2. We noted during our audit that two employees; both employed in the xxxxxxxxxxx
         xxxxx x job position had a portion of their time allocated to this NSF award. These
         employees did not complete an after-the-fact report the percentage/time expended
         related to this particular NSF award. The allocation of these individuals’ salary to the
         NSF award was based upon the budget allocation submitted to NSF during the award
         process. The questioned salaries and wages and associated fringe benefits were
         $97,971 and $39,188, respectively. These questioned salaries and fringe benefits have a
         portion already included in the above questioned costs, therefore, the net questioned
         costs are as follows:
                                                       Salaries
                                                         and            Fringe
                                                       Wages           Benefits         Total

               Total questioned costs                   $ 97,971        $ 39,188       $ 137,159
               Less: amount questioned above
                     for missing time records             63,576          25,430          89,006

               Net questioned costs                     $ 34,395        $ 13,758       $ 48,153




                                                                                                53
                                                                        Schedule B-2 (Cont.)

                      THE SCHOOL DISTRICT OF PHILADELPHIA
                  National Science Foundation Award Number ESI-0085055
                            Schedule of Questioned Costs (Cont.)
                        From September 1, 2000 to August 31, 2005


1. Salaries and Wages and Fringe Benefits (Cont.)

      3. SDP was unable to provide documentation to support employee health insurance benefit
         premiums for the period September 1, 2000 to October 31, 2001. The associated
         questioned costs for these health insurance premiums amounted to $63,265. This
         amount was comprised of health insurance recorded in the following SDP fund
         accounts:

                                                 Less:          Amounts in
                                 Total          Amounts         the period
                   SDP            Per             after          9/1/00 to
                 Fund No.       Account         10/31/01         10/31/01

                   2851         $ 71,061         $ 12,472          $ 58,589
                   2852          125,742          121,066             4,676

                                $ 196,803        $ 133,538         $ 63,265

2. Permanent Equipment

   We are questioning $7,718 of permanent equipment costs because SDP could not provide
   supporting documentation in the form of a vendor’s invoice to support a cost claimed.

3. Travel

   We are questioning $691 of travel costs because SDP could not provide supporting
   documentation in the form of a travel expense report to support the costs claimed for one
   expense.




                                                                                          54
                                                                            Schedule B-2 (Cont.)

                       THE SCHOOL DISTRICT OF PHILADELPHIA
                   National Science Foundation Award Number ESI-0085055
                             Schedule of Questioned Costs (Cont.)
                         From September 1, 2000 to August 31, 2005

4. Participant Support Costs

   We are questioning $908,159 of participant support costs for the following reasons:

   1. SDP, without the written authorization of NSF, in accordance with GPM 618.1 b., utilized
      participant support funds for other categories of expenses, in the amount of $701,570,
      calculated as follows:

                   Budgeted participant support                  $ 3,446,986
                   Less: participant support costs incurred        2,745,416

                   Excess participant costs utilized for
                    other NSF expenses                            $ 701,570

   2. We are questioning $205,273 of participant support costs because SDP could not provide
      supporting documentation in the form of a vendor’s invoice to support the costs claimed for
      seven expenses.

   3. We are questioning $1,316 of participant support costs due to the lack of attendance/sign-in
      records for three individuals to support training costs.




                                                                                               55
                                                                          Schedule B-2 (Cont.)

                       THE SCHOOL DISTRICT OF PHILADELPHIA
                   National Science Foundation Award Number ESI-0085055
                             Schedule of Questioned Costs (Cont.)
                         From September 1, 2000 to August 31, 2005


5. Subawardee Costs

   We are questioning $114,318 of subawardee costs claimed by Research For Action and the
   Franklin Institute (both subawardees of SDP) to SDP for the following reasons:

   Research For Action:

   The costs reported by Research For Action (a subawardee of SDP) did not agree with the
   amount of costs recorded in their books of account resulting in a net overclaim/questioned
   costs of $ xxxxxx (Y/E 6/30/01 - $ xxxxxx, Y/E 6/30/02 - $ xxxx and Y/E 6/30/03 - $ xxxx) as
   follows:

                                               Year Ending June 30, 2001
                                          (A)            (B)            Difference
                                         Costs        Costs Per        (Over) Under
                                       Reported       Books of            Claim
           Category of Expense          to SDP         Account           (A) - (B)

         Salaries and wages             $ xxxxxx        $ xxxxxx         $ xxxxxx
         Fringe benefits                  xxxxxx          xxxxxx          Xxxxxx
         Consultants                      xxxxxx          xxxxxx          Xxxxxx
         Supplies                         xxxxxx          xxxxxx          Xxxxxx
         Travel                           xxxxxx          xxxxxx          Xxxxxx
         Transcription                    xxxxxx          xxxxxx          Xxxxxx
         Stipends                         xxxxxx          xxxxxx          Xxxxxx
         Copying                          xxxxxx          xxxxxx          Xxxxxx
         Telephone                        xxxxxx          xxxxxx          Xxxxxx
         Indirect costs                  Xxxxxx           xxxxxx          Xxxxxx

           Total                        $ xxxxxx        $ xxxxxx         $ xxxxxx




                                                                                            56
                                                                          Schedule B-2 (Cont.)

                        THE SCHOOL DISTRICT OF PHILADELPHIA
                    National Science Foundation Award Number ESI-0085055
                              Schedule of Questioned Costs (Cont.)
                          From September 1, 2000 to August 31, 2005

5. Subawardee Costs (Cont.)

   Research For Action (Cont.):

                                              Year Ending June 30, 2002
                                         (A)            (B)            Difference
                                        Costs        Costs Per        (Over) Under
                                      Reported       Books of            Claim
           Category of Expense         to SDP         Account           (A) - (B)

          Salaries and wages          $ xxxxxx        $ xxxxxx         $ xxxxxx
          Fringe benefits               xxxxxx          xxxxxx          Xxxxxx
          Consultants                   xxxxxx          xxxxxx          Xxxxxx
          Supplies                      xxxxxx          xxxxxx          Xxxxxx
          Travel                        xxxxxx          xxxxxx          Xxxxxx
          Transcription                 xxxxxx          xxxxxx          Xxxxxx
          Stipends                      xxxxxx          xxxxxx          Xxxxxx
          Copying                       xxxxxx          xxxxxx          Xxxxxx
          Telephone                     xxxxxx          xxxxxx          Xxxxxx
          Indirect costs               Xxxxxx           xxxxxx          Xxxxxx

            Total                     $ xxxxxx        $ xxxxxx         $ xxxxxx

                                               Year Ending June 30, 2003
                                          (A)             (B)           Difference
                                         Costs         Costs Per       (Over) Under
                                       Reported        Books of           Claim
            Category of Expense         to SDP         Account           (A) - (B)

          Salaries and wages          $ xxxxxx        $ xxxxxx          $ xxxxxx
          Fringe benefits               xxxxxx          xxxxxx           Xxxxxx
          Consultants                   xxxxxx          xxxxxx           Xxxxxx
          Supplies                      xxxxxx          xxxxxx           Xxxxxx
          Travel                        xxxxxx          xxxxxx           Xxxxxx
          Transcription                 xxxxxx          xxxxxx           Xxxxxx
          Stipends                      xxxxxx          xxxxxx           Xxxxxx
          Copying                       xxxxxx          xxxxxx           Xxxxxx
          Telephone                     xxxxxx          xxxxxx           Xxxxxx
          Indirect costs               Xxxxxx           xxxxxx           Xxxxxx

            Total                     $ xxxxxx        $ xxxxxx          $ xxxxxx
                                                                                           57
                                                                            Schedule B-2 (Cont.)

                         THE SCHOOL DISTRICT OF PHILADELPHIA
                     National Science Foundation Award Number ESI-0085055
                               Schedule of Questioned Costs (Cont.)
                           From September 1, 2000 to August 31, 2005

5. Subawardee Costs (Cont.)

   Franklin Institute:

   1. The costs reported by the Franklin Institute (a subawardee of SDP) did not agree with the
      amount of costs recorded in their books of account resulting in a net overclaim/questioned
      costs of $70,603, as follows:

                                                 Year Ending June 30, 2003
                                            (A)             (B)           Difference
                                           Costs         Costs Per       (Over) Under
                                         Reported        Books of           Claim
             Category of Expense          to SDP          Account          (A) - (B)

           Salaries and wages            $ xxxxxx        $ xxxxxx        $ xxxxxx
           Fringe benefits                 xxxxxx          xxxxxx         Xxxxxx
           Consultants                     xxxxxx          xxxxxx         Xxxxxx
           Professional Resources          xxxxxx          xxxxxx         Xxxxxx
           Materials                       xxxxxx          xxxxxx         Xxxxxx
           Stipends                        xxxxxx          xxxxxx         Xxxxxx
           Indirect Costs                  xxxxxx          xxxxxx         Xxxxxx

             Total                      $ xxxxxxx       $ xxxxxxx       $ xxxxxxx

   2. In addition to the above the Franklin Institute was not able to provide documentation to 11
      other than personnel costs expenses selected for testing out of a testing universe of 74
      items. The costs associated with these 11 questioned items amounted to $3,742.

6. Other Costs

   We are questioning $50,439 of other costs because SDP could not provide supporting
   documentation in the form of a vendor’s invoice to support the costs claimed for four expenses.




                                                                                               58
                                                                              Schedule B-2 (Cont.)

                        THE SCHOOL DISTRICT OF PHILADELPHIA
                    National Science Foundation Award Number ESI-0085055
                              Schedule of Questioned Costs (Cont.)
                          From September 1, 2000 to August 31, 2005

7. Indirect Costs

   We are questioning $41,763 of indirect costs based upon the direct costs previously questioned,
   calculated as follows:

                     Category of Questioned Cost                           Amount

            Salaries and wages                                         $ 1,034,659
            Fringe benefits                                                477,129
            Permanent equipment                                              7,718
            Travel                                                             691
            Participant support costs                                      908,159
            Subawardees                                                    114,318
            Other costs                                                     50,439

               Total direct costs questioned                               2,593,113
               Less: permanent equipment & participant
                     support costs (not in MTDC)                           (915,877)

               Total MTDC costs questioned                                 1,677,236
               Indirect cost rate                                              2.49%

            Indirect costs questioned                                  $     41,763




                                                                                               59
                                                                                 Schedule C-1

                      THE SCHOOL DISTRICT OF PHILADELPHIA
                 National Science Foundation Award Number ESR-9453043
                       Schedule of Adjustments and Reclassifications
                           From July 1, 1999 to August 31, 2001


Subawardee/Other Costs

We have reclassified the $435,132 of subawardee costs that were classified by SDP in their
books of account in other costs. The amount of subawardee costs was budgeted by SDP as a
separate cost category in the budget submitted to and approved by NSF.

Cost Sharing

This award period for ESR-9453043 was September 1, 1995 to August 31, 2001. The total
required cost sharing for this award was $35,561,763. M.D. Oppenheim & Company, P.C.
performed an audit on this award (from September 15, 1995 to June 30, 1999) and audited
the cost sharing reported. At that audit SDP reported $29,185,590 of cost sharing, however,
the audit of supporting records disclosed that the actual cost sharing provided was
$32,334,375. For the current audit SDP was unable to locate their final project report for this
award which would indicate the total cost sharing reported to NSF. In addition, SDP could
not provide any additional documents that would indicate/support additional cost sharing for
the current audit period of July 1, 1999 to August 31, 2001.

Based upon the above we have adjusted cost sharing for the actual amount audited in the
prior audit, which recognized that SDP incurred an additional $3,148,785 in cost share the
difference between the $32,334,375 and $29,185,590). The difference between the cost
share required, $35,561,763 and the cost share audited of $32,334,375 is unmet cost share of
$3,227,388. NSF will address unmet cost share during its audit resolution process.




                                                                                            60
                                                                               Schedule C-2

                     THE SCHOOL DISTRICT OF PHILADELPHIA
                 National Science Foundation Award Number ESI-0085055
                      Schedule of Adjustments and Reclassifications
                       From September 1, 2000 to August 31, 2005

Subawardee/Other Costs

We have reclassified the $997,981 of subawardee costs that were classified by SDP in their
books of account in other costs. The amount of subawardee costs was budgeted by SDP as a
separate cost category in the budget submitted to and approved by NSF.


Indirect Costs

The indirect costs claimed to NSF for award number ESI-0085055 was not correct and as a
result SDP did not report all the indirect costs that were allowable based upon the approved
indirect cost rate, calculated as follows:

          Total direct costs                                      $ 8,230,340

          Less: Equipment costs                                       (117,761)
                Participant support costs                           (2,745,416)

          Modified total direct costs                                  5,367,163

          Pre-determined indirect cost rate                               2.49%

          Total calculated indirect costs                               133,642
          Indirect costs claimed by SDP                                  73,111

          Adjustment - indirect costs not claimed                  $     60,531




                                                                                         61
                                                                                      Schedule D

                    THE SCHOOL DISTRICT OF PHILADELPHIA
      National Science Foundation Award Numbers ESR-9453043 and ESI-0085055
                               Schedule of Cost Sharing
                         From July 1, 1999 to August 31, 2005


                                                                   Cost Sharing
                     Cost          Cost                            Claimed After        Questioned
    NSF            Sharing        Sharing       Adjustments and Adjustments and         Cost Sharing
  Award No.        Required       Claimed       Reclassifications Reclassifications       Amount

ESR-9453043      $ 35,561,763    $ 29,185,590    $ 3,148,785         $ 32,334,375         $        -0-

                                    (A)         (Schedule C-1)
                                                     (B)

ESI-0085055      $ 1,406,887     $ 1,613,290    $         -0-        $ 1,613,290          $        -0-

(A)   Claimed for the period September 15, 1995 to June 30, 1999. SDP could not provide
      any evidence that cost sharing was incurred or reported for the period July 1, 1999 to
      August 31, 2001. However, we noted from our prior audit of SDP that the actual cost
      sharing provided was $32,334,375, which resulted in an adjustment of $3,148,785 for
      the difference between the $32,334,375 amount and the reported amount of
      $29,185,590. SDP could not provide any documentation for the remaining
      $3,227,388 ($35,561,763 less $32,334,375) of cost share required for this award.
      NSF will address unmet cost share during its audit resolution process.


(B) Cost sharing adjusted per prior audit for the period September 15, 1995 to June 30,
    1999.




                                                                                              62
                                                                                                  Schedule E

                        THE SCHOOL DISTRICT OF PHILADELPHIA
                             National Science Foundation Awards
                          Summary Schedule of Awards and Results
                            From July 1, 1999 to August 31, 2005


Summary of Awards

                Award
                Number                   Award Period                      Audit Period

              ESR-9453043              09/15/95-08/31/01                07/01/99-08/31/01
              ESI-0085055              09/01/00-08/31/05                09/01/00-08/31/05

Summary of Questioned and Unresolved Costs

    NSF                                                             Questioned
   Award                             Claimed          Questioned       Cost          Unresolved     Unsupported
   Number        Award Budget         Costs             Costs        Sharing           Costs          Costs

ESR-9453043      $ 14,975,401(A) $ 4,985,040(B)       $ 1,525,171   $       -0-       $   -0-       $ 1,525,171

ESI-0085055      $ 8,144,803      $ 8,144,803         $ 2,634,876   $       -0-       $   -0-       $ 2,634,876

(A) For the period September 15, 1995 to August 31, 2001.

(B) For the period July 1, 1999 to August 31, 2001.

Summary of Questioned Costs by Explanation

                                                         Questioned         Internal
                                                           Cost             Control         Noncompliance
                  Condition                               Amount            Finding            Finding

• Salaries and wages and associated
  fringe benefits related to missing time
  and attendance records for the period
  July 1, 1999 to November 30, 2002.                     $ 2,454,591             X                   X

• Lack of time and effort reporting for
  salaries allocated to NSF awards and
  the associated fringe benefits.                              91,195                                X




                                                                                                          63
                                                                       Schedule E (Cont.)

                    THE SCHOOL DISTRICT OF PHILADELPHIA
                         National Science Foundation Awards
                    Summary Schedule of Awards and Results (Cont.)
                        From July 1, 1999 to August 31, 2005

                                             Questioned     Internal
                                               Cost         Control        Noncompliance
                Condition                     Amount        Finding           Finding


• Lack of documentation to support costs
  claimed to NSF for employee health
  benefits, permanent equipment, travel,
  participant support costs and other
  costs.                                     $   714,283       X                 X

• Utilization of unexpended participant
  support costs for other award
  expenditures without the written
  approval of NSF.                               701,570       X                 X

• Subawardee cost were questioned for
  costs claimed in excess of the amounts
  reflected in the books of account and
  missing documentation.                         125,168       X                 X

• The indirect costs related to the direct
  costs questioned.                               73,240                         X

       Total questioned NSF costs            $ 4,160,047




                                                                                      64
                                                                         Schedule E (Cont.)

                       THE SCHOOL DISTRICT OF PHILADELPHIA
                            National Science Foundation Awards
                       Summary Schedule of Awards and Results (Cont.)
                           From July 1, 1999 to August 31, 2005


Summary of Noncompliance and Internal Control Findings

                                                                                 Amount of
                                                                   Amount of     Claimed/
                                   Noncompliance       Material,   Questioned     Incurred
                                     or Internal      Reportable     Cost           Costs
           Condition                  Control?        Or Other?     Effected      Effected

• Lack of An Adequate Financial    Internal Control
  Management     System     for    and compliance
  Accounting and Reporting of
  NSF costs.                                           Material    $       -0-   $ 13,190,374
• Lack of an Adequate Record       Internal control
  Retention  and    Retrieval      and compliance
  System.                                              Material    $ 3,211,916   $ 12,398,510
• Lack of a System to Identify,    Internal control
  Account for, Monitor, and        and compliance
  Report Cost Sharing.                                 Material    $       -0-   $ 1,613,290
• Lack of Fiscal Monitoring and    Internal control
  Accounting of Subawardee         and compliance
  Costs.                                               Material    $   125,168   $ 1,433,113
• Lack of Adequate Process for     Internal control
  Monitoring Participant Support   and compliance
  Costs.                                               Material    $   701,570   $ 2,745,416




                                                                                         65
                      THE SCHOOL DISTRICT OF PHILADELPHIA
                           National Science Foundation Awards
                               Notes to Financial Schedules
                          From July 1, 1999 to August 31, 2005

1.   Summary of significant accounting policies:

       Accounting basis

       The accompanying financial schedules have been prepared to comply with the
       requirements of the National Science Foundation (NSF) Audit Guide. Schedules A-1
       and A-2 have been prepared from the reports submitted to NSF. The basis of
       accounting utilized in preparation of these reports differs from accounting principles
       generally accepted in the United States of America. The following information
       summarizes these differences:

       a. Equity

       Under the terms of the award, all funds not expended according to the award
       agreement and budget at the end of the award period are to be returned to NSF.
       Therefore, the awardee does not maintain any equity in the award and any excess cash
       received from NSF over final expenditures is due back to NSF.

       b. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the schedule of award costs include the cost of equipment
       purchased during the period rather than a provision for depreciation.

       Except for awards with nonstandard terms and conditions, title to equipment under
       NSF awards vests in the recipient, for use in the project or program for which it was
       acquired, as long as it is needed. The recipient may not encumber the property
       without approval of the federal awarding agency, but may use the equipment for its
       other federally sponsored activities, when it is no longer needed for the original
       project.

       c. Inventory

       Minor materials and supplies are charged to expense during the period of purchase.
       As a result, no inventory is recognized for these items in the financial schedules.

       d. Income Taxes

       SDP is a local government entity and is exempt from income taxes under the
       Internal Revenue Code.


                                                                                          66
                      THE SCHOOL DISTRICT OF PHILADELPHIA
                           National Science Foundation Awards
                           Notes to Financial Schedules (Cont.)
                          From July 1, 1999 to August 31, 2005

2.    NSF cost sharing and matching:

      The following represents the cost sharing requirements and actual cost sharing for the
      period July 1, 1999 to August 31, 2005 on NSF Award Nos. ESR-9453043 and ESI-
      0085055.

                                          (A)
                                       Actual Cost       (B)               Net
       NSF           Cost Sharing       Sharing      Questioned        Cost Sharing    Over/
     Award No.        Required          Claimed      Cost Sharing        (A)-(B)      (Under)

 ESR-9453043        $ 35,561,763(1)        (2)             (2)              (2)        (2)

 ESI-0085055        $ 1,406,887        $ 1,613,290     $         -0-   $ 1,613,290    $ 206,403

(1) This amount is for the entire award period of September 15, 1995 to August 31, 2001.

(2) SDP could not provide any evidence that cost sharing was incurred or reported for the
    current audit period of July 1, 1999 to August 31, 2001.




                                                                                             67
APPENDIX A–AUDITEE’S COMMENTS TO REPORT




                                          68
                       THE SCHOOL DISTRICT OF PHILADELPHIA
                              CHIEF FINANCIAL OFFICE
                                                   440 N. BROAD STREET. SUITE 304
                                                 PHILADELPHIA. PENNSYLVANIA 19130


J A M E S DOOSEY                                                                        TELEPHONE (215) 400-4-300
I M E R I M C'HIEP P I N 4 N C I I I . OPFlCKR                                                FAX (215) 4 0 - 4 5 0 1

                                                                     February 25,2008

       Via electronic mail

      M.D. Oppenheim & Company, P.C.
      Certified Public Accountants
      210 Lake Drive East, Suite 102
      Cherry Hill, New Jersey 08002
      Attention: Joseph J. Scudese, CPA

                               Re:          National Science Foundation Award Numbers
                                            ESR-9453043, Urban Systemic Initiative
                                            ESI-0085055, Urban Systemic Program



              Please accept the attached documents as the response of The School District of
      Philadelphia (the "School District") in connection with M.D. Oppenheim & Company, P.C.'s
      draft audit report of the School District's abovereferenced awards from the National Science
      Foundation.

              1 would like to take this opportunity to thank                            for all of your
      efforts with respect to this matter. Please convey our
      Inspector ~ e n e i a l ' sOffice, for their cooperation and &stance in concluding this matter.

                   Please contact me if you have any questions concerning our response.




      JPD/

      Attachments
    The School District of Philadelphia
          Response to Findings

    National Science Foundation Audit
Award No. ESR-9453043 (7/1/1999-8/31/2001)
Award No. ESI-0085055 (9/1/2000-8/31/2005)




         Submitted February 26, 2008




                                             70
                                The School District of Philadelphia
                               National Science Foundation Audit
                                      Response to Findings
                          (Award Numbers: ESR-9453043 & ESI-0085055)



The School District of Philadelphia (the “SDP”) submits the following in response to the
findings and recommendations contained in the draft audit report prepared by M.D.
Oppenheim & Company, P.C. on behalf of the National Science Foundation (“NSF”) Office
of Inspector General (“OIG”)5 with respect to NSF award number ESR-9453043
(“Philadelphia Urban Systemic Initiative: Children Achieving in Science, Mathematics and
Technology”) for the period from July 1, 1999 through August 31, 2001, and award number
ESI-0085055 (“Philadelphia Urban Systemic Program”) for the period from September 1,
2000 through August 31, 2005. The SDP greatly appreciates the OIG’s acceptance and
consideration of this written response and accompanying documentation.

As set forth in greater detail below, the SDP disputes the majority of the draft audit findings
and recommendations. The SDP’s records show that the bulk of the costs questioned in the
audit report are, in fact, allowable under the award(s).6 Moreover, the financial practices and
procedures under which SDP currently operates comprise sufficient internal controls to
safeguard federal funds against loss or misuse. Finally, certain of the recommendations in
the draft report regarding continuing monitoring and oversight by NSF over the SDP are in
excess of NSF’s regulatory authority or are otherwise unwarranted.

Once again, the SDP appreciates the opportunity to submit these comments.




         5
          The SDP uses the shorthand “OIG” or “the OIG” throughout this response to refer to the NSF Office of
the Inspector General itself and its contractor, M.D. Oppenheim & Co., P.C. (now WithumSmith+Brown).

         6
             The SDP did not provide many of these records in the course of the audit process due largely to
misunderstandings on the SDP’s part as to the OIG’s purposes in requesting particular materials. For instance, the
SDP was not able to locate and produce various documents in response to the OIG’s specific requests for vendor
invoices. Having reviewed the draft audit report, the SDP now has a clearer understanding that part of the OIG’s
purpose in seeking those invoices was to determine whether the SDP had adequately documented its obligation to
pay the subject vendors the amounts charged to the awards. The SDP has therefore performed a renewed search of
its files for records other than invoices that would serve the same ends (i.e., demonstrating an obligation to pay a
sum certain). The SDP has included such additional documentation in the exhibits attached hereto.



                                                          1
                             School District of Philadelphia
                          National Science Foundation Audit
                                 Response to Findings
                     (Award Numbers: ESR-9453043 & ESI-0085055)



Finding 1.    Lack of an Adequate Financial Management System for Accounting and
              Reporting NSF Costs

The first finding in the draft audit report rests on a conclusion that the SDP “did not have an
adequate financial management system and internal control process for the accounting and
reporting of NSF award costs,” although OIG acknowledges that “SDP maintained a
sufficient overall financial management system to account for all other types of SDP costs.”
See Draft Report at 21. The asserted bases for this finding include (1) the SDP’s practice of
aggregating expenditures for multiple budget categories in its books under the heading of
“Other,” (2) its inability to produce supporting worksheets and other documentation for its
periodic Federal Cash Transaction Reports (“FCTRs”) submitted to NSF, and (3)
unexplained differences between the SDP’s award budget(s) and the expenditures recorded
on its books. As a consequence of this finding, OIG recommends that NSF withhold any
further awards to the SDP pending verification that the SDP has developed and implemented
an effective system of accounting and internal controls. See Draft Report at 23.

   Auditee’s Response
   The SDP disputes this finding and the accompanying recommendations.

   The SDP has in place the internal controls and accounting systems necessary to meet its
   obligations under its funding agreements with federal grantor agencies. Indeed, as
   acknowledged at page 21 of the draft audit report, “SDP maintained a sufficient overall
   financial management system to account for all other types of SDP costs.” Accordingly,
   there is no call for remedial actions on the SDP’s part and/or further oversight by NSF.
   This is particularly true given that the SDP no longer receives any financial assistance
   from NSF.

   The SDP has also taken the following steps to enhance its internal controls and other
   systems of accountability:

       • As of 2005, the SDP completed phasing in the Advantage accounting software
         system. This system allows the SDP to track expenditures according to both
         federal and non-federal grant requirements. For example, the coding structure
         used by Advantage is arranged according to “Fund-Agency-Organization-
         Activity-Object-Reporting Category.” The Advantage system’s chart of accounts
         is based on the Commonwealth of Pennsylvania’s Chart of Accounts.
         Specifically, the four digit activity code (describing the type of expenditure
         according to Instructional, Professional Development, Parental Involvement, etc.)
         and the four digit object code (differentiating expenditures by major object, e.g.,
         Salaries - 1000, Contracted Services - 3000, Supplies – 6000, etc.) provide ample


                                               2
                         School District of Philadelphia
                      National Science Foundation Audit
                             Response to Findings
                 (Award Numbers: ESR-9453043 & ESI-0085055)



       opportunity to classify grant expenditures according to the particular requirements
       of each award. This flexibility in use is evident in the Advantage structure for the
       SDP’s federal Individuals with Disabilities Education Act (IDEA) grant, where
       the SDP has created twelve separate activity codes to track and report
       expenditures. See Exh. A (sample IDEA tracking report).

   • The SDP has developed written procedures related to cash draw downs (see Exh.
     B) as part of a comprehensive grant management policy and procedure document.
     For all grants, source data and worksheets are maintained and are traceable to the
     support costs reported on the FCTR.

   • The SDP has developed and implemented policies providing for generation of
     budget-to-actual reports and policies that are distributed monthly to all program
     managers across the SDP. See Exh. C (budget to actual instructions to managers
     and sample report). Managers at all levels of the organization are required to
     review those reports in addition to more detailed systems typically maintained at
     the program level. In addition, grant managers review and approve periodic
     financial reporting required by the grantor. These procedures permit accurate,
     current, and complete disclosure of the financial results of The SDP’s federally-
     funded activities in compliance with the specific financial reporting requirements
     of each of its federal awards.

In light of the above, the SDP maintains a system of accounting and internal controls
sufficient to safeguard federal funds against loss and/or misuse, that permits current and
accurate reporting of financial status, enhances accountability, and ensures that awarded
funds are expended for their intended purposes.




                                           3
                             School District of Philadelphia
                          National Science Foundation Audit
                                 Response to Findings
                     (Award Numbers: ESR-9453043 & ESI-0085055)



Finding 2.    Lack of an Adequate Record Retention and Retrieval System

The draft audit report contains a determination that the SDP’s system of record retention for
both awards “was in a state of disarray” in violation of the requirements of Office of
Management and Budget (OMB) Circular A-110 and Section 350 of the NSF Grant Policy
Manual. The asserted bases for this conclusion are (1) the SDP’s failure to provide source
documentation to support 63% of the total dollar amount in the sample tested (yielding
$3,297,826.00 in questioned costs out of a total sample of $5,132,828.00), (2) lengthy delays
in retrieving the source documentation produced in response to the auditors’ requests, and (3)
the SDP’s reliance on an arcane and/or confusing system for tracking costs charged to the
awards. As a consequence of this finding, the draft report recommends that NSF withhold
any further awards to the SDP pending verification “that SDP has developed and
implemented a system of record retention and retrieval that is easily comprehensible and that
allows for access to SDP records in an efficient and timely manner.”

   Auditee’s Response
   A. Questioned Costs

   The SDP disputes this finding.

   The questioned costs associated with this finding appear to fall into six categories: (1)
   salaries and wages, (2) fringe benefits, (3) permanent equipment, (4) travel, (5)
   participant support costs, and (6) other. The following addresses the questioned costs in
   each of these categories in turn:

       7. Salaries and Wages – $783,759.00 (ESR-9453043), $1,034,659.00 (ESI-0085055)

       The lion’s share of the costs questioned as part of Finding #2 relate to employee
       salaries charged to the two awards. The report indicates that the SDP failed to
       produce any original time and attendance records for the entire period audited for
       ESR-9453043 and for September 1, 2000 through November 30, 2002 under ESI-
       0085055. See Draft Report at 36, 39. Given the absence of this or similar
       documentation, the auditors conclude that all salaries and wages paid out of the
       awards during the subject time periods are unsupported. At the SDP’s request during
       the exit conference, the auditors provided to the SDP a list of employees whose time
       records were missing. See Exh. D. Of the SDP staff members identified, all but two
       were allocated 100% to the awards.

       This finding rests largely on the misapplication of federal cost principles. Although it
       is not explicit in the text of the draft report, it appears that the finding relies on the


                                               4
                                  School District of Philadelphia
                               National Science Foundation Audit
                                      Response to Findings
                          (Award Numbers: ESR-9453043 & ESI-0085055)



         requirement in OMB Circular A-122 that an awardee support salary charges through
         “[r]eports reflecting the distribution of activity of each employee . . . whose
         compensation is charged, in whole or in part, directly to awards.” OMB Circ. A-122,
         Att. B, § 8.m(2) (emphasis added).

         OMB Circular A-122, however, do not apply to the SDP’s awards from NSF, and the
         applicable cost principles contain no similar requirement for personnel time and
         activity reporting. Cost allowability for federal award expenditures by units of state,
         local, and tribal governments is determined in accordance with OMB Circular A-87 –
         not OMB Circular A-122, which applies to awards to private not-for-profit entities.
         See 45 C.F.R. § 602.22(b). 7 Under OMB Circular A-87, salary and wage charges
         “will be based on payrolls documented in accordance with generally accepted practice
         of the governmental unit and approved by a responsible official(s) of the
         governmental unit.” OMB Circ. A-87, Att. B, § h(1). Grantees need only maintain
         “personnel activity reports or equivalent documentation” to support the allocation of
         salaries and wages for “employees work[ing] on multiple activities or cost objectives .
         . . .” Id. at § h(4). By contrast, an awardee may support salary charges for employees
         working exclusively on “a single Federal award or cost objective” through
         certifications prepared by the employee or his/her supervisor at least every six months
         stating that the employee worked solely on that program for a particular period. Id. at
         § h(3).

         The SDP maintains documentation in its files sufficient to meet the salary support
         standards in OMB Circular A-87. The SDP runs its payroll processing functions
         through its Advantage accounting software system. SDP payroll staff enters all
         employee time and attendance information for each pay period into Advantage. See
         Exhs. E (Advantage payroll manual), F (payroll histories for 2000, 2002; leave
         history for pay periods covered by OIG request). Such data is then stored in
         Advantage for later retrieval as necessary. The SDP thus relies on an electronic
         method of recording employee time and attendance for payroll purposes, and the
         absence of paper records showing the same information is in no way inconsistent with
         either institutional policies or the SDP’s obligations under OMB Circular A-87.


         7
           The SDP notes that the OIG relies throughout the draft report on OMB Circular A-110 – OMB’s
“Uniform Administrative Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Nonprofit Organizations” – as authority governing the SDP’s operation and administration of
the subject awards. The SDP, however, is a special purpose unit of state government, and is therefore subject to the
requirements of OMB Circular A-102 – “Grants and Cooperative Agreements with State and Local Governments”
(codified in NSF regulations at 45 C.F.R. Part 602) – rather than those of A-110. As set forth in the text above, the
SDP is likewise subject to the cost principles in OMB Circular A-87.




                                                          5
                     School District of Philadelphia
                  National Science Foundation Audit
                         Response to Findings
             (Award Numbers: ESR-9453043 & ESI-0085055)



The SDP otherwise satisfied the salary documentation requirements in the cost
principles, having prepared “Summary Proposal Budgets” for submission to NSF (and
at NSF’s behest) throughout the course of both awards covering budget periods of
varying lengths. See Exh. G (budgets and budget details). Each of these proposals
showed that the individuals and/or positions listed in the SDP’s earlier budgets as
working exclusively on NSF-related activities continued to do so. In addition, the
periodic budget proposals were prepared and submitted to NSF by these employees’
direct supervisor – i.e., the program director(s) for the NSF awards – thus meeting the
authentication criterion under the cost principles.

Accordingly, the salary charges for those SDP employees working 100% on the two
NSF awards are properly supported and are therefore allowable. These charges
represent $1,677,405.00 of the $1,818,418.00 in questioned salary costs in the draft
audit report, leaving $141,013.00 (i.e., the amount comprising the salaries and wages
allocated to the NSF awards without contemporaneous time records showing the
distribution of employee effort) in undocumented salary costs.

8. Fringe Benefits – $388,187.00 (ESR-9453043), $477,129.00 (ESI-0085055)

The draft audit identifies the above amounts as questionable costs paid out of the
SDP’s two NSF awards based largely on the same rationale as that underlying the
questioned salary costs.

In light of the discussion in Section A.1., above, $670,963.00 of the $865,316.00 in
questioned employee fringe benefits charged to the two awards were all properly
documented. This $670,963.00 figure consists of the fringe benefit costs attributable
to employees devoted exclusively to NSF-related activities, less the $137,948.00 in
health insurance premiums listed at pages 36 and 40 of the draft report.

9. Permanent Equipment – $8,022.00 (ESR-9453043), $41,742.00 (ESI-0085055)

The draft audit report states that the SDP failed to produce vendor invoices for two
equipment purchases paid out of ESR-9453043 and for three paid out of ESI-
0085055. The two payments under ESR-9453043 were to Fisher Scientific
($xxx xxx on December 8, 2000), School Mart ($xxxxxx on March 23, 2000), and the
three payments under ESI-0085055 were all to Dell Marketing LP ($xxxxxx,
$ xxxx xx and $ xxxxxx, paid on November 29, 2001, May 14, 2003, and August
26, 2002, respectively).

The SDP has performed a renewed search of files, this time to locate evidence of the
obligations (other than vendor invoices) underlying each of the identified


                                       6
                                 School District of Philadelphia
                              National Science Foundation Audit
                                     Response to Findings
                         (Award Numbers: ESR-9453043 & ESI-0085055)



        transactions. This search revealed purchase orders and proof of receipt of goods for
        the Dell Marketing LP transactions of November 29, 2001 ($8,836.00) and August
        26, 2002 ($25,188.00). See Exh. H (Dell Marketing documentation). This
        documentation is sufficient to support the $34,024.00 of the subject permanent
        equipment costs.

        10. Participant Support Costs – $239,464.00 (ESR-9453043), $211,290.00 (ESI-
            0085055)8

        OIG further asserts that the SDP lacked supporting documentation for forty-seven
        payments relating to “participant support” under ESR-9453043, seven payments for
        similar purposes under ESI-0085055, and payments to nineteen SDP employees for
        time in attending NSF-funded trainings. The expenditures under ESR-9453043 total
        $239,464.00, and consist (with one exception) of payments to vendors identified in
        the ledger. The remaining payment represents disbursements to vendors aggregated
        in a single ledger entry as a “journal voucher” totaling $15,754.00. Similarly,
        $154,728.00 of the total $211,290.00 in questioned participant support costs under
        ESI-0085055 relate to two journal vouchers recorded on the SDP’s books.

        The SDP has performed a renewed search of files, this time to locate evidence of the
        obligations (other than vendor invoices) underlying each of the identified
        transactions. The SDP has retrieved from those files documentation to support all of
        the transactions with a document prefix of “PV” listed at page 59 of the draft report,
        as well as the following “PV” documents listed at page 58: PV AV700033182 01
        (April 25,2000 $ xxxxxx payment to National Council of Teachers); PV
        AV700057610 01 (September 28, 2000 $ xxxxxx payment to Texas Instruments); PV
        AV700109263 01 (September 17, 2001 $ xxxxxx payment to D&H Distributors); PV
        AV700015939 01 (December 21, 1999 $ xxxxxxx payment to D&H Distributors).
        See Exh. I (participant support cost documentation). This documentation is sufficient
        to support $28,802.00 of the subject participant support costs under ESR-9453043
        and $50,545.00 under ESI-0085055.

        As to the journal vouchers (the transactions with a document prefix of “JV”) relating
        to participant support costs under ESI-0085055, those entries are comprised of
        numerous vendor payments individually listed elsewhere on the SDP’s ledger which
        the SDP has aggregated for the purpose of redistributing costs among budget periods.
        That is, where certain costs paid out of a given budget year were eligible charges

        8
          The $211,290.00 figure does not include $701,570.00 in participant support costs questioned on the
grounds that the SDP failed to obtain prior agency approval for rebudgeting of that amount. The SDP addresses that
matter separately in the response to Finding #5.



                                                        7
                                 School District of Philadelphia
                              National Science Foundation Audit
                                     Response to Findings
                         (Award Numbers: ESR-9453043 & ESI-0085055)



        under the prior budget year, the SDP would aggregate those eligible charges, move
        them to the prior budget year in a single journal voucher entry, then record an
        offsetting entry on the ledger for the budget year in which the costs originally
        appeared. By way of illustration, “JV GFS00006368” is a journal voucher entered on
        August 7, 2003 in the amount of $130,883.00. See Draft Report at 59. That journal
        voucher appears on the SDP’s books along with an offsetting entry on the same date
        and under the same transaction number. Exh. J (justification for JV GFS00006368).
        The SDP has confirmed that JV GFS00006368 consists of 190 payment vouchers paid
        out of Year 2 ½ funds that were eligible expenditures for the first six months of Year
        2. Similarly, “JV OMBG0000664” (September 24, 2004 for $23,845.00) represents
        numerous payment vouchers initially paid from Year 4 funds that were moved to
        Year 3. Exh. K (listing of payment vouchers under JV OMBG0000664). The
        documentation for each of these two journal vouchers is therefore in the ledger itself.9

        Finally, the SDP has located supporting records for all but two of the payments to
        employees listed at page 60 of the draft audit report, thus reducing the original
        amount of questioned costs from $6,017.00 to $768.00. See Exh. L.

        11. Travel – $2,849.00 (ESR-9453043), $1,436.00 (ESI-0085055)

        The SDP has located supporting documentation for both of the questioned travel
        expenditures. See Exh. M.

        12. Other – $81,336.00 (ESR-9453043), $71,106.00 (ESI-0085055)

        OIG states that the SDP was unable to produce backup invoices for four expenditures
        under ESR-9453043 totaling $81,336.00, and six expenditures under ESI-0085055
        totaling $71,106.00.

        The SDP has performed a renewed search of files, this time to locate evidence of the
        obligations (other than vendor invoices) underlying each of the identified
        transactions. The SDP has retrieved from those files documentation to support the
        three transactions with a document prefix of “PV” listed at page 59 of the draft report.
        See Exh. N (“other cost documentation).

        The remaining three “other” transactions listed for ESI-0085055 are journal voucher
        entries. Two of these fall under JV OMBG0000664 and consist, once again, of re-

        9
          Although the SDP believes that documentation for certain of the purchase vouchers listed in Exhibits J
and K were previously provided in the course of the audit, the SDP stands ready to provide any additional
documentation that OIG might like to review as support for these costs.



                                                        8
                        School District of Philadelphia
                     National Science Foundation Audit
                            Response to Findings
                (Award Numbers: ESR-9453043 & ESI-0085055)



   recording costs initially paid out of Year 4 funds as costs payable out of the SDP’s
   Year 3 account. See Exh. K. The third journal voucher, JV CPCHR 343, represents
   charges for copying services performed by the SDP’s print shop at a cost of 3.85 cents
   per page. See Exh. O (print shop documentation).

   Similarly, three of the four “other” transactions for ESR-9453043 are journal
   vouchers. The first, JV GFS00000838, relocated $7,294.00 in Year 6 costs to Year 5.
   See Exh. P. The second and third journal vouchers, JV BGXGR803473 and JV
   BGXGR803441, represent aggregated costs recorded individually under the SDP’s
   old accounting system. These journal voucher entries were included on the SDP’s
   books to ensure accuracy and consistency in fund accounting when it commenced
   implementation of its new Advantage accounting system some time after the start of
   the NSF budget period. That is, rather than having portions of the funds available and
   incurred expenditures for that budget period reported on two different systems of
   accounting, the SDP opted to show the previously recorded costs grouped by category
   in Advantage, thus creating a complete picture of the relevant NSF budget year
   expenditures in the Advantage system.

C. Policy Recommendations

Regarding the propriety of OIG’s recommendation that NSF withhold all further awards
pending resolution of the record retention finding, the SDP refers to its response to
Finding #1.

In addition, the SDP amended its Accounts Payable manual filing system in FY07 and
implemented an electronic scanning and retrieval application in FY08. The specific steps
implemented are as follows:

       Documents Processed in FY 2007 (July 1, 2006 – June 30, 2007)—Documents
       were manually filed as follows: 1) Payment Vouchers by payment voucher
       number, 2) Purchase order invoices in alphabetical order by vendor name, and 3)
       Employee reimbursement documents in alpha order by the employee’s last name.

       Current Document Retention and Retrieval Process in FY08 (July 1, 2007 to
       current)—All payment vouchers (PV) (excluding imprest fund and employee
       reimbursement transactions) and purchase order (PO) invoices are imaged by an
       outside contractor, Data Management Internationale (“DMI”), and available for
       retrieval via the Application Xtender software. Any supporting payment
       documentation submitted is also scanned and available for retrieval.




                                         9
                        School District of Philadelphia
                     National Science Foundation Audit
                            Response to Findings
                (Award Numbers: ESR-9453043 & ESI-0085055)



      Imprest fund documents are filed manually by payment voucher number and
      employee reimbursement documents are still filed manually in alphabetical order
      by the employee’s last name.

      Documents are imaged weekly and available one week later for on demand
      desktop retrieval by Accounts Payable. Documents can be retrieved from the
      application using payment voucher number and/or purchase order number. In
      addition, the hard copies of documents are currently being retained by the SDP.

      To ensure all processed payments have been imaged, there is a reconciliation
      process of imaged documents by DMI to the financial system (Advantage) file
      from the SDP. An exception report is produced weekly and submitted to
      Accounts Payable for resolution.

Since implementing the document retention and retrieval system in July of 2006, the SDP
has been able to retrieve all requested documents required for the City of Philadelphia
Controller’s Year-end audits. In addition, the SDP has been successful in manually
retrieving documents processed during fiscal 2007.




                                        10
                                 School District of Philadelphia
                              National Science Foundation Audit
                                     Response to Findings
                         (Award Numbers: ESR-9453043 & ESI-0085055)



Finding 3.       Lack of a System to Identify, Account for, Monitor and Report Cost-
                 sharing

The draft audit report contains a determination that the SDP “lacked a system to identify,
account for, monitor and report cost-sharing it contributed to both NSF awards, raising
questions as to the reliability and integrity of the $3,148,785 of cost-sharing the SDP
reported for NSF award ESR-9453043 and the $1,613,290 of cost-sharing reported for NSF
award ESI-0085055.” According to OIG, this amounts to a violation of the requirements of
Office of Management and Budget (OMB) Circular A-110 and Section 333.6 of the NSF
Grant Policy Manual. The asserted bases for this conclusion are (1) the SDP’s failure to
provide source documentation to support any of the claimed cost-sharing from July 1, 1999
forward under ESR-9453043, and (2) the SDP’s failure to provide curricula for six trainings
from November 21, 2003 through June 4, 2004 to support a claim of $1,385,224.00 in cost-
sharing under ESI-0085055. See Draft Audit at 47, 50. As a consequence of this finding,
OIG recommends that NSF withhold any further awards to the SDP pending verification
“that SDP has established a system to identify, account for, monitor, and report cost-sharing
expenses . . . .” Id. at 27.

    Auditee’s Response

    The SDP disputes this finding. Contrary to the statements in the draft report, the SDP has
    adequately documented its cost-share for ESI-0085055.10 As acknowledged at page 50 of
    the draft report, the SDP provided the auditors with dates, attendance sheets, and agendas
    for each of the training sessions in the sample supporting the amounts claimed in cost-
    sharing for the trainings and demonstrating that each was in furtherance of NSF award
    purposes. The sole apparent basis for the finding of insufficient documentation was
    OIG’s unilateral refusal to accept the training agendas as proof of allocability.

    Although the SDP disputes the notion that any further documentation is necessary to
    justify its cost-sharing claim, the SDP has located the curriculum training materials for
    the six mathematics teacher training sessions listed at page 50 of the draft report, which
    resulted in $1,385,224 in questioned cost-sharing. Those documents are contained in
    Exh. Q, attached hereto. The curricula serve as double confirmation that the six trainings
    were NSF-related activities. From the SDP’s understanding, based on OIG’s statements
    in the exit conference, the scripts satisfy OIG’s concerns over allocability. Therefore, the
    $1,385,224 of questioned costs should be removed from the audit (as contained on


        10
           It does not appear from the text of the draft audit report that OIG questions any costs relating to ESR-
9453043 based on any failure to document cost-sharing. The SDP therefore does not specifically address Finding #3
with respect to ESR-9453043 except to the extent that it bears upon recommended remedial measures.



                                                        11
                         School District of Philadelphia
                      National Science Foundation Audit
                             Response to Findings
                 (Award Numbers: ESR-9453043 & ESI-0085055)



Schedule D-1 of the audit), including the $161,365 of Excess Federal Costs as computed
on Schedule B-3.

As to the recommendation that NSF withhold any future awards to the SDP until it
develops and implements a system for tracking and reporting cost-share, the SDP refers
to its response to Finding #1. Moreover, to the extent the draft report calls for any further
action by the SDP, the SDP has already established a formalized system for recording,
tracking, and reporting cost-sharing and/or matching costs under all of its federal awards.
In the fall of 2005, the SDP instituted the following procedures designed to ensure that
cost-sharing/match requirements are met on all grants:

   • Consideration of match requirements in the early stages of grant-seeking in
     making strategic decisions about which grants to apply for. All grant
     opportunities over $20,000 are initially reviewed by the SDP’s “Development
     Committee,” which is comprised of high level administrators representing all
     major academic offices (e.g., Curriculum and Instruction, Leadership and
     Professional Development, etc.) Information about match requirements is now
     included in the briefing that committee members receive about each grant
     opportunity. In making decisions about which opportunities to respond to and
     about what overall approach to take in applying, committee members consider
     what resources exist and which resources may realistically be leveraged for cost-
     sharing/match purposes.

   • Specific and concrete identification of planned cost-sharing/match in all grant
     proposal budgets. During the proposal development process, representatives from
     the SDP’s Office of Management and Budget require program offices to specify in
     concrete terms the source of any non-federally funded programmatic expenditure
     included as part of any plan for cost-sharing/match. In the absence of a specific
     and documentable source of match, the proposal will not be submitted.

   • Post-award meetings with grant managers to determine specific cost-
     sharing/match documentation plan. Upon notification of any grant award, a
     meeting is convened with the program manager(s), representatives from the Office
     of Management and Budget, and other relevant District administrators (e.g., from
     the Office of Grants Development and Support, the Office of Research and
     Evaluation, etc.) A regular item on the agenda for all such meetings is the
     discussion of cost-sharing/match requirements (if any) for the grant in question.
     Action plans for documenting cost-sharing/match expenditures are developed. If
     appropriate, program managers are provided with sample personnel time logs and




                                           12
                         School District of Philadelphia
                      National Science Foundation Audit
                             Response to Findings
                 (Award Numbers: ESR-9453043 & ESI-0085055)



       other forms for them to use in documenting match costs. See Exh. R (“Managing
       Your Grant” manual and checklist).

   • Enhanced staffing to carry out cost-share tracking and compliance functions. As
     of 2005, the SDP has increased the number of budget office personnel responsible
     for reviewing cost-sharing requirements for the SDP’s federal awards on an on-
     going basis to ensure that it is meeting those requirements during relevant budget
     periods and that the costs claimed are allowable as cost-share.


In light of these actions and the absence of any current awards from NSF to the SDP,
there is no need for additional oversight or remedial steps to address the conditions
identified in Finding #3.




                                         13
                            School District of Philadelphia
                         National Science Foundation Audit
                                Response to Findings
                    (Award Numbers: ESR-9453043 & ESI-0085055)

Finding 4.    Lack of Adequate Fiscal Monitoring and Accounting of Subawardee Costs

The draft audit report further indicates that the SDP was deficient in its supervision and
monitoring of subawardees. Specifically, the report states that the SDP “commingled”
subawardee costs in its accounting system with “other” costs and failed to maintain separate
records to track subawardee expenditures in a manner that would permit budget-to-actual
comparisons. See Draft Report at 28. The report further faults the SDP due to the lack of
monitoring policies and procedures such as on-site reviews of subawardee books and
operations. Id. As part of this finding, OIG questions $ xxxxxxxx in payments to Research
for Action (“RFA”) under ESR-9453043, $ xxxxxxxxx in payments to RFA under ESI-
0085055, and $ xxxxxxx in payments to Franklin Institute (“FI”) under ESI-0085055. Id.
OIG further recommends that NSF withhold any future awards to the SDP unless and until
NSF verifies “that SDP has developed a comprehensive subawardee monitoring plan.” Id.
at 30.

   Auditee’s Response

   The SDP disputes the conclusion that it failed adequately to monitor RFA and FI under
   the two NSF awards. The SDP structured its contractual relationships with both of these
   entities as fee-for-service arrangements, pursuant to which RFA and FI would be entitled
   to payment on the basis of deliverables, not on the basis of their costs. See Exh. S
   (agreements with RFA and FI). The compensation clause in the relevant contracts does
   not, however, contemplate cost reimbursement, but instead directs the vendors to submit
   quarterly invoices detailing goods/services delivered, along with a date and place of
   delivery.

   Moreover, it appears that the audit report understates the contractors’ costs attributable to
   the NSF awards. The most significant error in this regard appears in the comparisons of
   costs claimed by RFA and those recorded on its books for ESI-0085055. See Draft
   Report at 42-43. The schedules attached to the draft audit show that fully $ xxxxx of the
   $ xxxxxx in questioned payments to RFA consist of RFA's charges for indirect costs
   allocable to the award. The OIG has questioned those charges because RFA did not
   specifically book those costs in its general ledger. RFA's entitlement to recover its
   indirect costs, however, is simply a function of applying its indirect cost rate (as duly
   negotiated with the federal government) to its modified total direct costs under the
   agreement. See Exh. T (RFA budget showing indirect cost rate). That RFA’s books do
   not show an assignment of indirect costs to NSF-related activities has no bearing on
   RFA’s entitlement to recover those costs, nor does it in any way lead to a conclusion that
   such costs are unsupported. So long as the costs comprising RFA’s indirect cost base are
   documented, indirect costs claimed according to RFA’s negotiated rate are allowable.

   The SDP otherwise refers to its response to Finding #1 for its response to OIG’s
   recommendation 4.



                                              14
                            School District of Philadelphia
                         National Science Foundation Audit
                                Response to Findings
                    (Award Numbers: ESR-9453043 & ESI-0085055)


Finding 5.    Lack of an Adequate Process for Monitoring Participant Support Costs

The draft audit report contains a finding that the SDP expended $701,570 in ESI-0085055
award funds budgeted for “participant support costs” on other obligations without first
obtaining agency approval for such rebudgeting. See Draft Report at 30-31. OIG bases this
conclusion on the fact that a September 30, 2005 Federal Cash Transaction Report (“FCTR”)
showed (a) that the SDP had exhausted the full amount of the USP award, (b) that the SDP
had budgeted $3,446,986 for participant support costs, and (c) that the SDP spent only
$2,745,416 on participant support costs. In light of the SDP’s having fully expended the
available NSF funds yet having underspent the participant support cost budget line item, OIG
infers that the SDP necessarily used the excess $701,570 in that line item for other NSF
award purposes. This action, by the OIG’s estimation, would only have been permissible
had the SDP secured authorization from NSF. Seeing no such agency approval in the SDP
records, the draft audit report questions $701,570 in charges to ESI-0085055.

   Auditee’s Response

   The SDP disputes this finding. The bulk of the costs included in the “participant support
   cost budget” were not, in fact, participant support costs. The budget justifications and
   detailed budget narratives accompanying the original application for assistance under
   ESI-0085055, as well as the revised budgets submitted to NSF prior to the award, reveal
   that the vast majority of the funds budgeted for “participant support costs” were to go to
   pay SDP teachers for their time while attending NSF-related trainings.

   These sorts of payments, however, are expressly excluded from NSF’s own definition of
   “participant support costs,” and it is therefore at best questionable whether the prior
   approval requirement to which OIG refers applied in the first instance. The 1995 and
   2002 iterations of the NSF Grant Policy Manual (i.e., the versions of the manual
   applicable during the award period) each define “participant support costs” as “direct
   costs for items such as stipends or subsistence allowances, travel allowances and
   registration fees paid to or on behalf of participants or trainees (but not employees) in
   connection with meetings, conferences, symposia or training projects.” See “National
   Science Foundation Grant Policy Manual” at § 618.1(a) (July 1995); “National Science
   Foundation Grant Policy Manual” at § 618.1(a) (July 2002) (emphasis added). Indeed, it
   was not until NSF issued its June 2007 revisions to the Grant Policy Manual that the
   agency sought to include any payments to employees for training, etc., within the rubric
   of “participant support costs.” Even then, NSF only characterized such costs “as
   participant support if payment is made through a stipend or training allowance method.”
   See “National Science Foundation Grant Policy Manual” at § V.B.8.a(i) (June 2007).

   The SDP placed payments to teachers/trainees under the budget heading of “participant
   support costs” only after NSF requested that the SDP do so as part of its revision and
   resubmission of its funding application. The budget in the original application shows
                                             15
                         School District of Philadelphia
                      National Science Foundation Audit
                             Response to Findings
                 (Award Numbers: ESR-9453043 & ESI-0085055)

these payments not as participant support costs, but instead as salaries/wages/fringes.
Moreover, the SDP’s classification of these personnel costs in its initial application
submission is consistent with the SDP’s treatment of the same manner of costs under
ESR-9453043. The budgets for that award show that the SDP budgeted costs attributable
to teacher wages for their participation in NSF-supported trainings as
salaries/wages/fringes, leaving only a fairly small portion of the grant funds devoted to
“participant support costs.”

In light of the foregoing, the salary payments identified in the budget as “participant
support costs” were not in their nature “participant support costs,” regardless of the name
attached to those payments in any budget document. The SDP was therefore under no
obligation to seek NSF’s prior approval for any rebudgeting to reduce the “participant
support cost” line item. NSF was fully aware of how the SDP planned to use the funds
under this line item and approved of the SDP’s plans. It is accordingly insignificant from
an auditing standpoint and as a matter of law that the SDP (at NSF’s direction)
characterized such costs as “participant support costs.”




                                          16
                             School District of Philadelphia
                          National Science Foundation Audit
                                 Response to Findings
                     (Award Numbers: ESR-9453043 & ESI-0085055)

Finding 6.     Lack of Adequate Submissions of Final Project Reports

The final finding in the draft audit report faults the SDP for failing to submit the required
final project report for ESR-9453043 and for submitting its final project report for ESI-
0085055.

   Auditee’s Response 6

   With relation to ESR-9453043, the SDP disagrees with this finding. Exhibit U hereto
   contains the final project report provided to the NSF and e-mail communication back
   from NSF accepting the submission from the SDP as the Final Project Report.

   With regard to ESI-0085055, the SDP requested NSF’s permission to submit its final
   project report later than ninety days after the close of the award period. NSF granted that
   request, and the report was submitted and accepted by the NSF. See Exh. V.




                                               17
        School District of Philadelphia
     National Science Foundation Audit
            Response to Findings
(Award Numbers: ESR-9453043 & ESI-0085055)

              CONCLUSION




                    18
 THE SCHOOL DISTRICT OF PHILADELPHIA

DETAILED (PERSONAL IDENTIFYING INFORMATION) IN
            SCHEDULES B-1 AND B-2
                                                                The School District of Philadelphia
                                                                NSF Award Number ESR-9453043
                                                                 Details to Missing Documentation




                                                                                                      Total $   310,898
(*) Journal voucher, name of vendor not determinable




                Categorization of Expenses by Budget Category

A=   TRAVEL                                            $
B=   OTHER                                                       81,336
C=   PARTICIPANT SUPPORT COST                                   221.540
D=   PERMANENT EQUIPMENT                                          8.022
       Total                                           $        310,898
                                                          The School District of Philadelphia
                                                           NSF Award Number ESI-0085055
                                                           Details to Missing Documentation




                                   513 112002 PV AV70014964303         00 11402    ,   NATIONAL GEOGRAPHIC SOCIETY
                                   6/19/2002 PV AV70015329701          0025414         HARCOURT BRACE EDUCATIONAL
                                  10/22/2002 PV AV700 1697260 1        0020647         MCGRAW HILL COMPANIES
                                   9/24/2004 JV OMBG0000664
                                   51 1412003 PV AV70019534701

                                                                                                                Total   $ 264,121
(') Journal voucher, name of vendor not determ~nable.

          Cateqorization of Expenses by Budqet Cateqoly

A=   TRAVEL                                     $             691
B=   OTHER                                                 50,439
C=   PARTICIPANT SUPPORT COST                             205,273
D=   PERMANENT EQUIPMENT                                    7,718
       Total                                    $         264,121
             The School District of Philadelphia
              NSF Award Nurr~berESI-0085055
                       -
Participant Support Cost Listing of Missing Documentation




                                      Total                 $   1,316
